<html>
<title> - OVERVIEW OF FOREIGN POLICY ISSUES AND BUDGET</title>
<body><pre>[Senate Hearing 107-41]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 107-41

              OVERVIEW OF FOREIGN POLICY ISSUES AND BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MARCH 8, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                   U.S. GOVERNMENT PRINTING OFFICE
72-227                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
CRAIG THOMAS, Wyoming                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin
LINCOLN D. CHAFEE, Rhode Island      PAUL D. WELLSTONE, Minnesota
GEORGE ALLEN, Virginia               BARBARA BOXER, California
SAM BROWNBACK, Kansas                ROBERT G. TORRICELLI, New Jersey
                                     BILL NELSON, Florida
                   Stephen E. Biegun, Staff Director
                Edwin K. Hall, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    30
Powell, Hon. Colin L., Secretary of State, Department of State, 
  Washington, DC.................................................     3
    Prepared statement...........................................    10
    Responses to additional questions submitted for the record 
    by:
      Senator Jesse Helms........................................    36
      Senator Joseph R. Biden, Jr................................    43
      Senator Russell D. Feingold................................    45
      Senator Paul Wellstone.....................................    46

Statement submitted for the record:

    The Fourth Freedom Forum.....................................    35

                                 (iii)

  

 
              OVERVIEW OF FOREIGN POLICY ISSUES AND BUDGET

                              ----------                              


                        THURSDAY, MARCH 8, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Lugar, Hagel, Thomas, Frist, 
Brownback, Biden, Sarbanes, Kerry, Feingold, and Torricelli.
    The Chairman. The committee will come to order, and I wish 
we had a larger hearing room, because there are at least as 
many people outside as are inside, so you know how to draw a 
crowd, Mr. Secretary.
    Having said that, we welcome you, of course, for this 
morning's meeting of the Senate Foreign Relations Committee, 
and this meeting is your first appearance before the committee 
as Secretary of State. We are pleased and honored to have you 
with us.
    Now, we hope that you will always feel at home here and 
that you will visit with us often, not only when we ask you to 
come, but whenever you have something to say to Congress and 
the American people. So the door will always be open.
    Before we turn to you for your testimony, there is one 
issue that I hope you will address while you are with us, and 
that is, reforming foreign aid. First, the Agency for 
International Development [USAID] must be folded into the State 
Department directly under the control of your own good self, 
the Secretary of State.
    Second, there must be a significant cut in the size and 
cost of the foreign aid bureaucracy, and I will leave it to you 
to decide how much.
    Third, we must take every penny we save by cutting 
bureaucracy and invest it in a new international development 
foundation charged with delivering block grants to private and 
faith-based charities that are saving lives all around the 
world, and finally, we must match those savings dollar for 
dollar with an increased U.S. investment in the work of these 
relief organizations, and specifically, Mr. Secretary, I pledge 
to you this morning that for every dollar we take out of 
bureaucratic overhead, I personally will support a matching 
dollar increase in U.S. assistance delivered through these 
private and faith-based charities.
    In other words, every $1 that is cut from the bureaucracy 
will translate into $2 in real relief for the neediest people 
in this world.
    Now, if you reduce the size of the bureaucracy by 5 
percent, I personally will help you fight for a 5 percent 
increase in U.S. assistance. If you reduce the bureaucracy by 
10 percent, I will champion a 10-percent increase, and 15 
percent, and on down the line. Mr. Secretary, let me put it 
this way. If you want to see how far I will go in working with 
you, just test me.
    In any case, Mr. Secretary, I hope that I can have your 
commitment today to work with this committee to reform the way 
that we have been delivering so wastefully foreign aid in the 
past.
    Senator Biden. Excuse me. I'm sorry.
    I beg your pardon, Mr. Chairman. Mr. Chairman, I join you 
in welcoming Secretary Powell. Secretary Powell, I just want 
you to know that you have knowledgeable people hopefully in 
front of you, but you also have Mrs. Sarbanes sitting behind 
you, so she is more knowledgeable than we are, so I just 
wanted--I just embarrassed her--but I welcome you here.
    Last week, the President submitted his budget, Mr. 
Secretary, his budget outline, I should be more precise, to 
Congress. A more detailed budget is still to come, and based on 
what we know so far, I must tell you I am disappointed with the 
international affairs budget. It provides only a modest 
increase in real terms over fiscal year 2001, and it is below 
the levels provided for fiscal year 1999 and 2000.
    During your confirmation hearing, Mr. Secretary, you made 
clear your belief that you did not have enough resources to 
accomplish your mission. Now, I acknowledge that you are just 
getting underway, and there is a lot you have to get in place, 
but I want you to know that you have not only raised my 
expectations, but I think you raised, in your first meetings 
with your colleagues at the State Department, their 
expectations as to how significant an increase may be 
forthcoming to do some of the very basic things that have to be 
done at State to modernize it.
    As you well know, you have been put in the dubious position 
by the press and both parties as being the guy who is going to 
be able to deliver like no other Secretary could for your folks 
over at State, so I realize you are in a bit of a tough 
position. I am glad to see the increase, but I am concerned 
that the funding levels in the budget may be insufficient to 
strengthen our diplomatic readiness.
    I think it is a delusion to believe that we can protect our 
numerous interests overseas with a diplomatic infrastructure 
that is second-rate--I am not talking about the people. I am 
talking about the infrastructure--and assistance programs that 
are underfunded.
    As you continue to develop your priorities, I strongly urge 
you to seek additional funding for the Department and 
international programs that you need, notwithstanding the fact 
that you may not be able to get them. I realize every Cabinet 
Secretary has that difficulty, but we are counting on you to 
make the best case possible for the needs of the Department.
    I hope you can spend a few minutes this morning reporting 
on your recent trip, although I know that is not the primary 
purpose of your visit here today. In particular, I am 
interested in hearing your ideas about reenergizing sanctions 
against Iraq.
    We also must keep the world focused on the key threat, 
Saddam's effort to acquire weapons of mass destruction, and 
that can again and are likely to threaten our neighbors.
    I particularly welcome your assurance to our NATO partners. 
I have had more calls than I can tell you, including a visit 
from Lord Robertson yesterday, to tell me how pleased everyone 
was with your comment, that we went in together and we will 
come out together. I think that goes a long, long way to 
reassuring our NATO allies of our steadfastness and our 
commitment.
    Finally, let me say a quick word about the current visit of 
South Korean President Kim, who is the author of the engagement 
strategy and is slowing opening up North Korea. I must tell 
you, I was somewhere between puzzled and disappointed by what 
the reports of the meeting with the President were yesterday, 
particularly in light of what I read your statements--that you 
were taking a positive but not naive look at what possibilities 
there may be.
    If President Kim was correctly quoted, or paraphrased, he 
said he thinks there is a window of opportunity that is open 
now that will not stay open very long. As I have said in 
response to inquiries from the press, I am not sure what is on 
the other side of that window. I am not sure that we want what 
is on the other side of the window, but I am quite sure that we 
should look through the window.
    So I hope that if you have an opportunity, again, today--
there is a lot on your plate here, but I hope you get an 
opportunity to maybe--clarify is the wrong word, explain to us 
what President Bush, if you are able to, meant by his statement 
yesterday that there be no immediate--and I emphasize, I, maybe 
because I want to convince myself, look to the word immediate 
as the operative word, but I may be wrong, no immediate 
interfacing with North Korea.
    But if you have time, I would like you to--you may be able 
to respond to that in the question and answer period.
    But again, I welcome you, look forward to working with you. 
As the Senator said to you, I think you can count on both sides 
of this panel, Democrats and Republicans to, once you conclude 
what you need, to help you fight for the resources you believe 
you need at State to do the job I think we all think we need to 
do.
    Thank you very much, and I thank you, Mr. Chairman.
    The Chairman. Mr. Secretary.

    STATEMENT OF HON. COLIN L. POWELL, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Powell. Well, thank you very much, Mr. Chairman 
and Senator Biden for your welcome. It is good to be back 
before the committee, this time as the Secretary of State, and 
I thank you for the prompt consideration of my nomination just 
a few short weeks ago.
    I have been the Secretary of State for 5\1/2\ weeks. I must 
admit, it is beginning to feel like 5\1/2\ months, if not 5\1/
2\ years, as I have begun to deal with the tasks before me, and 
I am also pleased that you will be dealing with the other 
nominees for the Department of State in a prompt manner, as 
those nominees come up to you. It is still a little lonely down 
there at the State Department, Mr. Chairman, but I am looking 
forward to a great team joining me in the very, very near 
future.
    I, too, look forward to the opportunity on a regular basis 
to come before the committee and to share my thoughts on the 
policies of the Bush administration, and to answer any 
questions you may have and, of course, I am at your disposal at 
any time, Mr. Chairman, and members of the committee, and look 
forward to seeing you individually and in different 
aggregations and not just in the form of hearings.
    Mr. Chairman, I fully take aboard what you said with 
respect to USAID. I remember vividly our previous conversation 
on this. Early on, the second week of my tenure as the 
Secretary of State, I went over to USAID and with the entire 
staff sat and talked and began the process of understanding how 
they were operating, making it clear to them that changes would 
be coming.
    I put in place an aggressive transition team, which is 
still over there working, and I am waiting for their report 
back on what directions we ought to move into, and I made sure 
I understood your interest in this particular matter, and said 
to the whole USAID team that I have been given an offer from 
Senator Helms as to how we can get more resources for these 
vital programs of ours if we show movement toward efficiency, 
toward reducing bureaucracy, and toward making better use of 
the nongovernmental organizations, especially faith-based sorts 
of organizations that are available to us.
    And so, Mr. Chairman, we have all that underway. As you 
know, the President has expressed his intention to nominate Mr. 
Andrew Natsios to be the next Director of the USAID. He brings 
a great deal of experience and a great deal of leadership 
ability and skill to this task and, in my conversations with 
Andy, I made it clear to him that I wanted him to be a change 
agent in order to make sure that we are doing the best job for 
the American people, and the people of the world, with the 
money that Congress is providing us to use through the U.S. 
Agency for International Development.
    So I look forward to working with you, Mr. Chairman, and 
the members of the committee, and the Congress, on this issue, 
and I wrote down very, very carefully the deal that we just 
talked about, one for one. It is going to be a lot more than 
one for one, and we will look forward to that, Mr. Chairman.
    Senator Biden, I thank you for your comment on resources. 
This budget submission is far from the end of the game. It is 
the beginning. In the short period of time we had to make 
adjustments to the budget submission, I think that the State 
Department did rather well, with a 5-percent overall increase 
in the account and the function, and with about a 15-percent 
increase in the Commerce, State, Justice piece of the account, 
which gives us the operational money we need to run the 
Department, and so I think we are off to a good start.
    But I am not fearful at this point that I am going to fail 
the expectations that you have of me, sir, or that the 
Department has of me, because I think President Bush also has 
expectations that we will do better, and that he will help us 
do better in future budgets.
    The outyears are a source of concern, and we will deal with 
that as we get into the next budget cycle, and I am confident I 
will be able to make the case that will generate more resources 
from within the President's budget, and that I can come up in 
future hearings and talk about a higher level of resources for 
the Department.
    I think before going into a very short version of my 
prepared statement, I would like to talk to some of the foreign 
policy issues that Senator Biden raised, because for the most 
part I am here to talk about the budget, but of course we can 
talk about any issues that members wish to talk about.
    Let me start with Iraq. Iraq and the situation in Iraq was 
the principal purpose of my trip throughout the Persian Gulf 
and Middle East area the week before last. When we took over on 
the 20th of January, I discovered that we had an Iraq policy 
that was in disarray, and the sanctions part of that policy was 
not just in disarray, it was falling apart. We were losing 
support for the sanctions regime that had served so well over 
the last 10 years, with all of the ups and downs and all of the 
difficulties that are associated with that regime. It was 
falling apart.
    It had been successful. Saddam Hussein has not been able to 
rebuild his army, notwithstanding claims that he has. He has 
fewer tanks in his inventory today than he had 10 years ago. 
Even though we know he is working on weapons of mass 
destruction, we know he has things squirreled away, at the same 
time, we have not seen the capacity emerge to present a full-
fledged threat to us. So I think credit has to be given to the 
United Nations and to the Perm 5 and to the nations in the 
region for putting in place a regime that has kept him pretty 
much in check.
    What I found on the 20th of January, however, was that 
regime was collapsing. More and more nations were saying, let's 
just get rid of the sanctions, let's not worry about 
inspectors, just forget it. There was all kinds of leakage from 
the frontline states, whether it was through Syria, through 
Jordan, through Turkey, or down through the Persian Gulf with 
the smuggling of oil, and so what I felt we had to do was to 
start taking a look at these sanctions, remember what they were 
oriented on in the first place, and remember that with respect 
to the sanctions--let's call that basket No. 1. That is what 
the United Nations does. It has nothing to do with regime 
change. That is U.S. policy. That U.S. policy, that let us put 
in basket No. 2, the no-fly zone, or in basket No. 3, Iraqi 
opposition activities.
    My immediate concern was basket No. 1, the U.N. basket and 
how it was falling apart, and it seemed to me the first thing 
we had to do was to change the nature of the debate. We were 
being accused and we were taking on the burden of hurting Iraqi 
people, hurting Iraqi children, and we needed to turn that 
around.
    The purpose of these sanctions was to go after weapons of 
mass destruction. That is what they were put in place for in 
the first instance, back at the end of the gulf war, so let us 
start talking about how the Iraqi regime is threatening 
children, their own children and the children of Saudi Arabia 
and Kuwait and Syria and all over the region, how they were a 
danger, in danger of what Saddam Hussein was doing, and take 
away the argument he was using against us.
    In order to make sure that that carried forward, we then 
had to take a look at the sanctions themselves. Were they being 
used to go after weapons of mass destruction, and was that the 
way they were connected to our original goals, or increasingly, 
were those sanctions starting to look as if they were hurting 
the Iraqi people.
    And it seems to me one approach to this was to go to those 
sanctions and eliminate those items in the sanctions regime 
that really were of civilian use, and benefited people, and 
focus them exclusively on weapons of mass destruction and items 
that could be directed toward the development of weapons of 
mass destruction.
    I carried that message around the region, and I found that 
our Arab friends in the region, as well as members of the Perm 
5 in the United Nations, as well as a number of my colleagues 
in NATO, found this to be a very attractive approach, and that 
we should continue down this line. And so we are continuing 
down this line that says, let's see if there is a better way to 
use these sanctions to go after weapons of mass destruction and 
take away the argument we have given him that we are somehow 
hurting the Iraqi people.
    He is hurting the Iraqi people, not us. There is more than 
enough money available to the regime now to take care of the 
needs they have. No more money comes in as a result of the 
change to this new kind of sanctions policy, but there is 
greater flexibility for the regime if they choose to use that 
flexibility to take care of the needs of its people.
    How do we get out of this regime ultimately? The inspectors 
have to go back in. If he wants to get out of this, if he wants 
to regain control of the oil for food escrow accounts, the only 
way that can happen is for the inspectors to go back in. But 
rather than us begging him to let the inspectors in, the burden 
is now on him. We control the money. We will continue to 
restrict weapons of mass destruction. You no longer have an 
argument, Mr. Iraqi Regime, that we are hurting your people. 
You let the inspectors in and we can start to get out of this.
    If the inspectors get in, do their job, we are satisfied 
with their first look at things, maybe we can suspend the 
sanctions, and then at some point, way in the future, when we 
are absolutely satisfied there are no such weapons around, then 
maybe we can consider lifting, but that is a long way in the 
future.
    So this was not an effort to ease the sanctions. This was 
an effort to rescue the sanctions policy that was collapsing. 
We discovered that we were in an airplane that was heading to a 
crash, and what we have done and what we are trying to do is to 
pull it out of that dive and put it on an altitude that is 
sustainable, bring the coalition back together.
    As part of this approach to the problem, we would also make 
sure that the Iraqi regime understood that we reserve the right 
to strike militarily any activity out there, any facility we 
find that is inconsistent with our obligations to get rid of 
such weapons of mass destruction.
    That takes care of the U.N. piece. On the no-fly zone, we 
are reviewing our policies to see if we are operating those in 
the most effective way possible and, with respect to the Iraqi 
opposition activities, we are supporting those. Our principal 
avenue of support is with the Iraqi National Congress, and last 
week I released more money of the money that had been made 
available to us by the Congress, released more of that money 
for their activities, and we are looking at what more we can 
support and what other opposition activities are available that 
we might bring into this strategy of regime change.
    And so I think it is a comprehensive, full review, to bring 
the coalition back together, put the burden on the Iraqi 
regime, keep focused on what is important, weapons of mass 
destruction, and keep him isolated and make sure that he is 
contained, and hopefully the day will come when circumstances 
will allow, permit, or it will happen with Iraq we see a regime 
change that will be better for the world.
    And so I would hope that the members of the committee will 
examine this approach as we develop it further, and I hope that 
you will find the basis upon which you can support it.
    Senator Biden also mentioned NATO. I am very pleased that 
we have solid relations with NATO. There were some irritants in 
the relationship, and I think those have been taken care of.
    With respect to the President's meeting with Kim Dae Jung 
yesterday, I think it was a very good meeting. They had a good 
exchange of views. The President expressed his support for 
President Kim Dae Jung's efforts to open North Korea. It is a 
regime that is despotic. It is broken. We have no illusions 
about this regime. We have no illusions about the nature of the 
gentleman who runs North Korea. He is a despot, but he is also 
sitting on a failed society that has to somehow begin opening 
if it is not to collapse. Once it is opened, it may well 
collapse anyway.
    And so we support what President Kim Dae Jung is doing. At 
the same time, we have expressed in the strongest possible 
terms, and President Bush did it in the strongest possible 
terms yesterday, our concerns about their efforts toward 
development of weapons of mass destruction and the 
proliferation of such weapons and missiles and other materials 
to other nations, not only in the region, but around the world, 
a major source of proliferation.
    As we look at the elements of the negotiation that the 
previous administration had left behind, there are some things 
there that are very promising. What was not there was a 
monitoring and verification regime of the kind that we would 
have to have in order to move forward in negotiations with such 
a regime.
    And so what the President was saying yesterday is that we 
are going to take our time, we are going to put together a 
comprehensive policy and in due course, at a time and at a 
place of our choosing, we will decide and determine how best to 
engage with the North Korean regime, but it was a good meeting, 
and I think the two Presidents had a very candid exchange of 
views, and we look forward to more exchanges of views with the 
South Koreans as we move forward, as well as with the Japanese, 
so we can move forward together, even though we may be on 
separate tracks from time to time.
    Mr. Chairman, I will stop there on foreign policy issues 
and just briefly touch on what we are trying to do in this 
budget. As you know, there are many ways that the President 
engages in foreign policy, sometimes it is meetings such as he 
held yesterday with President Kim Dae Jung, or meetings he has 
held with President Fox and held with Prime Minister Chretien 
of Canada.
    Sometimes it is sending the Secretary of State whizzing 
around the world, seven countries in 4 days. That gets a lot of 
news. But the real work of foreign policy is not accomplished 
just by Presidents or by Secretaries of State. It is done by 
the thousands and thousands of dedicated Americans who have 
signed up to serve in the Foreign Service, to serve as civil 
servants, to serve as Foreign Service nationals, for those who 
are not Americans, representing us around the world, and it is 
theirs that is the daily grind of foreign policy, punctuated by 
the occasional thrill and excitement of a diplomatic success.
    And their activities range from the minor to the sublime, 
from the courteous handling of a visa application, to the 
inking of a treaty limiting arms control, or limiting 
conventional arms in Europe, and I am saying to you, Mr. 
Chairman, something that you and the members of the committee 
already know. There are no finer groups of Americans anywhere 
in the world who represent our interests as well, and it is our 
obligation to give them the resources they need.
    I have seen how we try to take care of our military folks. 
I mentioned this to you at the last hearing, how places like 
Camp Bondsteel look so great when you go over to the Balkans. 
We ought to make sure that all of our State Department 
facilities look as great as those military facilities, and I 
think the budget that we have presented to you, with the 
increases that are proposed, start moving us in that direction.
    We are making strides in classified information technology. 
We are making sure that our people have access to the Internet. 
We are doing all we can to get a handle on energy, on embassy 
construction. We are especially grateful to a former member of 
this committee, Senator Grams, for his part in conceiving the 
5-year authorization of embassy funds.
    I am very pleased that 2\1/2\ years after the bombings in 
Kenya and Tanzania we are well on our way to reestablishing our 
presence there. We have other embassies that are state-of-the-
art that are coming up out of the ground now, so we have a lot 
going on, but I think we could do a better job of managing our 
embassy construction program.
    It is for that reason that I went out and tried to find one 
of the best persons I could find, expert in this, to come in 
and help me in the Department. I have acquired the services of 
a retired Major General in the United States Army, surprise, 
surprise, but retired Major General Chuck Williams, Charles E. 
Williams is from the Corps of Engineers. He built Fort Drum, 
New York. He built the Dulles Greenway out here, not far from 
here. He has brought projects to life all over the world, and 
he knows this business, and he is coming in to serve as the new 
head of our Foreign Buildings Office.
    I am going to move it out from under its current location 
so that it can have more direct reporting responsibility to me 
and to the Under Secretary for Management, and General 
Williams' instructions are, get out there, find out what we 
need to fix the management of this account, and we want to get 
rid of the bureaucracy, we want to find private ways of doing 
things. This is a first step toward perhaps ultimately going in 
the direction of the Kaden Commission recommendation, which 
would move it entirely out of the Department.
    I am not there yet. We have got a long way to go, but this, 
I think, is an aggressive first step in showing the kind of 
leadership I want the Department to see that we have identified 
a problem in that operation, went out and got a leader who is 
skilled, not just a political appointee, but somebody who knows 
how to get this job done, given him the political mandate to do 
it, and I am sure that General Williams will do a good job that 
will make us all proud.
    So Mr. Chairman, that is the kind of thing we are doing, 
the kind of thing we are going to do to get our information 
infrastructure fixed, to make sure that 30,000 desks throughout 
the State Department are wired for unclassified access to the 
Internet. This budget will do that, and then we will start 
working on classified access to the Internet.
    We are going to make sure that our people are state-of-the-
art. We are going to make sure that if an ambassador somewhere 
out there needs to get something from the Foreign Broadcast 
Information Service, he is not going to wait for something to 
be faxed or mailed to him, he is going to be able to bring it 
out of the ether online instantaneously, as he needs it.
    We are going to get into the state-of-the-art with the 
State Department. Mr. Chairman, I want our people to be 
supported as well as all of our soldiers and sailors and airmen 
and marines, and we are going to make sure that happens in the 
years ahead.
    The President's budget also provides money to hire a number 
of new Foreign Service officers. We are below the number we 
need to get the job done. One of the things we are going to do 
with this new budget is to create a float. We do not have a 
float in the Department. We always are robbing Peter to pay 
Paul when a new mission comes along.
    I need a float, just as we had in the military, so people 
can go to training, so that there is always a little reserve 
capacity where people can go off to school and get the 
additional skills they need without us vacating a position 
somewhere in an embassy or an important office here in 
Washington, and so we are going to increase the number of 
Foreign Service officers. We are going to create a float so 
that they can get the training that they need.
    And you are going to see, Mr. Chairman, that the budget 
also provides for the kinds of things that really advance our 
foreign policy, programs aimed at restoring peace, building 
democracy, and civil societies, safeguarding human rights, 
tackling nonproliferation and counterterrorism challenges, 
addressing global health and environmental issues, responding 
to disasters, and promoting economic reform.
    The budget expands counterdrug alternative development and 
government reform programs in the Andean region. It helps 
provide military assistance to Israel to meet cash-flow needs. 
It will fund all of the scheduled payments that are due in 2002 
to the multilateral development banks, and the United States 
commitment to the heavily indebted poor countries. It increases 
funding for migration and refugee assistance, for HIV/AIDS, one 
of the biggest problems facing the world today, trafficking in 
women, basic education for children.
    And with respect to trafficking in women and children, let 
me take this opportunity to thank Senator Brownback for his 
work in this effort and for the amendment that you offered last 
year, Senator, that was successful and added $10 million in 
economic support funds for efforts in Sudan to protect 
civilians from attacks and from slave trades.
    Mr. Chairman, the President's budget for 2002 also provides 
money to support peacekeeping operations, supports political 
and economic transitions in Africa, with emphasis on countries 
such as Nigeria and South Africa.
    As I go into these sorts of programs, I am going to be 
trying to invest in those countries that have made the 
necessary changes that put them on the path of democracy and 
the free enterprise system, and not keep propping up despots 
who will not move in the right direction. The cold war is over. 
We do not need to prop up those kinds of institutions in 
countries any longer.
    And so, Mr. Chairman, I think it is a budget that moves in 
the direction of freedom and democracy and supporting those 
efforts. It will help to reduce the risks presented by 
international terrorism. It will help halt the spread of 
weapons of mass destruction by providing stronger international 
safeguards on civilian nuclear activity. We are also going to 
increase funding for the Peace Corps, and I know Senator Dodd 
has a particular interest in that.
    And as I noted earlier, we are also going to provide 
additional money, not for Plan Colombia, per se, but to 
regionalize our activities so that Plan Colombia just does not 
become a snapshot, but it is part of a broader strategy for the 
region.
    Mr. Chairman, I can also say to you that I am going to work 
hard to carve out needless layers within the State Department. 
I know that the committee has intense interest in 
organizational activities and streamlining activities in the 
Department, and I am going to be on top of that, but I think 
that all begins with leadership. It begins with putting a team 
together. It begins with communicating throughout the 
Department that we are a team. We are going to be linked 
together on the basis of trust.
    When you have got that all going, Mr. Chairman, then you 
can start to make the organizational changes that I think will 
be needed and are needed to make sure that the Department is 
relevant to the needs of the Nation and the needs of the world 
in the 21st century.
    Mr. Chairman, let me stop there. I will provide the whole 
statement for the record, with your permission, and now I look 
forward to your questions.
    [The prepared statement of Secretary Powell follows:]

     PREPARED STATEMENT OF HON. COLIN L. POWELL, SECRETARY OF STATE

    ``FUNCTION 150 OF THE PRESIDENT'S BUDGET FOR FISCAL YEAR 2002''

    Mr. Chairman, members of the committee, I am pleased to be back 
before you so soon after our last hearing in January--and this time in 
support of President Bush's budget request for FY 2002.
    I know that it is the custom to use this particular hearing not 
only to discuss the President's budget but also to have the Secretary 
of State present, as Chairman Helms described it last year, ``the 
annual around-the-world state of our nation's foreign affairs.''
    But since we did a great deal of that in our January hearing, and 
since I warned you in that hearing that as soon as I got the details 
together to support budget testimony, you would see me again, I want to 
use my opening statement to focus on the budget.
    I know that you will want to ask questions of me with respect to 
President Bush's foreign policy and I will be pleased to answer them 
for you when I can and get for you any answers when I cannot. But for 
my opening statement I would like to concentrate on a matter very dear 
to me and, I know, very dear to you--the dollars for State Department 
operations particularly, and for Function 150 in general.
    Mr. Chairman, in January I not only told you to expect my return 
with respect to budget matters. I also told you that President Bush 
would be a leader who faithfully represents to the world the ideas of 
freedom and justice and open markets.
    The President has many ways he can do this, many different methods 
through which he can show the world the values of America and the 
prosperity and peace those values can generate. His recent personal 
visit to Mexico to talk with President Fox is one of those methods.
    Working out the means of cooperation and trade with a neighbor such 
as Mexico, however complex and difficult some of the underlying issues 
may be, is an undertaking full of promise for the future. President 
Bush knows how important such foreign policy efforts are and that is 
why we went to see President Fox.
    And, as you know, I returned just last week from visits to Israel, 
Egypt, Jordan, Syria, Saudi Arabia, Kuwait, and the West Bank, as well 
as to Brussels on my way home to participate in a meeting of the North 
Atlantic Council and to talk with some of my counterparts in Europe.
    As you also may know, I was able to have a talk with Russian 
Foreign Minister Igor Ivanov as well, while I was in Cairo.
    Such trips by his Secretary of State are another of the methods the 
President has at his disposal to represent American values and 
interests in the councils of state around the world.
    But the most important method by which the President presents 
America to the world, the most important method by far, is through the 
thousands of people who labor away at such representation every day of 
the week in almost every country in the world.
    I am of course speaking of our front line troops in the State 
Department, as well as those here in America who support them.
    I am talking about the Foreign Service officers, the Civil Service 
employees, and the Foreign Service nationals who make up the Department 
of State.
    Theirs is the daily drudgery of foreign policy, punctuated by the 
thrill and excitement of diplomatic success ranging from the minor to 
the sublime, from the courteous handling of a visa application to the 
inking of a treaty limiting conventional arms in Europe.
    Mr. Chairman, there are no finer people chipping away at tyranny, 
loosening the bonds of poverty, pushing the cause of freedom and peace, 
on the U.S. Government payroll.
    And it is a mystery to me how they have continued to do it over the 
years with so little resources.
    In my confirmation hearing with this committee I mentioned Camp 
Bondsteel in Kosovo where our GIs are stationed. As you know, it is a 
superb, first-class facility put in overnight to make sure that our 
troops are taken care of. But as many of you also know--Senator Biden 
for example--if you visited some of our dilapidated embassies and other 
facilities in the region, you would wonder whether the same government 
was taking care of them. The same bald eagle is clutching the arrows 
and the olive branch, but in many of State's buildings that American 
eagle is very ill-housed.
    Also at Camp Bondsteel there are excellent capabilities with 
respect to information technology, including the capability to send 
unclassified e-mails. In many of State's facilities there were no such 
capabilities.
    Now since the time that construction was begun on Camp Bondsteel, 
with the help of this committee and of the Congress as a whole, and 
with the good work of former Secretary Albright and her dedicated 
people, we have made great strides in our unclassified information 
technology at State.
    I want to thank you, Mr. Chairman, and all the members on this 
committee, for what you have done to get this process started.
    Many of you were active in helping to steer the Admiral James W. 
Nance and Meg Donovan Foreign Relations Act--our authorizing 
legislation and an important counterpart to the later appropriations 
bill--through the committee process and ultimately to floor passage.
    That legislation was an important start to what needs to be done 
with respect to the State Department's budget.
    My hope is that, in the first year of the Bush administration, you 
will work with us to continue this good progress we have made, and to 
see that our operations and our foreign affairs are put back in balance 
with everything else we do in the world.
    For example, now that we have made such strides in our unclassified 
information technology, we have to continue that progress by gaining 
broad-based Internet access. At the same time, we have to begin work to 
create classifled Local Area Network capabilities, to include e-mail 
and word-processing.
    Mr. Chairman, as you well know some of our embassies in addition to 
lacking up-to-date information technology, are not as secure as they 
should be--and so we have people who are not as secure as they should 
be.
    But again thanks to the House and Senate's attention to this 
matter, we are beginning to get a handle on it.
    We are especially grateful to a former member of this committee, 
Senator Grams, for his part in conceiving the five-year authorization 
of funds for embassy construction and to all the members of this 
committee for your hard work to begin to correct the years of neglect 
of our embassy infrastructure.
    I understand that when the FY 99 emergency supplemental was being 
put together, we did not have the sort of robust buildings program that 
was needed to meet security needs. We had to prove that we could ramp 
up to such a program and then manage it.
    Let me just say that in the two and a half years since the bombings 
in Kenya and Tanzania, we are well on the way to doing just that.
    We provided an immediate stand-up of facilities in Dar Es Salaam 
and Nairobi and within 12 months replaced each with more secure interim 
facilities that will be in place until the new replacement facilities 
are finished.
    We broke ground on those permanent facilities in August.
    Likewise, we just completed construction in Kampala, Uganda and our 
people have moved in just 15 months after construction began.
    We will also move into a new embassy in Doha, Qatar in early June 
of this year.
    Other new construction projects where we have broken ground include 
Zagreb, Istanbul, and Tunis.
    Ground-breaking for Abu Dhabi will occur this spring.
    In addition, we've funded over 1,200 individual perimeter security 
upgrades with over 50 percent now completed.
    But we are still not moving quickly enough nor efficiently enough.
    And I want to work with you and the other Members of Congress to 
gain your confidence so that we can move faster and eliminate some of 
the barriers that cost money to overcome.
    In that regard, we are carefully studying construction costs.
    I know that we can do better in adapting the best practices of 
industry and smart engineering techniques and technologies to embassy 
construction.
    The hundred-foot set-back, for example, can sometimes be overcome 
by better and smarter construction.
    Blast protection remains the same but the dollar costs are 
significantly lower because acquisition of land is exorbitantly 
expensive. If we can provide the same degree of security through a 
better built wall that has only, say, a fifty-foot set-back, then 
that's what we are going to do.
    And we believe better overall management is also achievable so that 
construction delays don't eat up precious more dollars.
    Better overall management includes bringing on board an experienced 
operations executive to manage the Overseas Facilities Program, as 
recommended by the Overseas Presence Advisory Panel. It also includes 
realigning the Foreign Buildings Office from within the Bureau of 
Administration to a stand-alone organization reporting directly to the 
Undersecretary for Management--requiring of course consultation with 
the Congress. And I hope I'll have your support on that.
    The combination of strong leadership, realignment of the function, 
and an industry panel to assist with identifying best practices from 
the private sector, along with implementation of other OPAP 
recommendations, will greatly improve the management of the overseas 
buildings program.
    I have asked one of the Army's finest engineers, retired Major 
General Charles Williams, to head this effort. He is an expert at 
reducing costs while delivering high quality and I've no doubt he will 
offer us new ways to execute and to manage our embassy construction.
    As a result, we may be able to reduce that hundred-million-dollar 
price tag on new embassy construction. I am committed to working with 
you and the appropriators on this issue.
    Mr. Chairman, in the past we have not in all cases done the best we 
could to see that our overseas personnel were as secure as they should 
be--but together, you and I can change that. Together, we can continue 
this very positive effort we have begun to pull the State Department 
into the 21st century.
    And that is what we are after in the President's Budget for Fiscal 
Year 2002--to continue this very positive forward momentum.
    The President's request of about $23.9 billion--a five-percent 
increase over this year--will do just that.
    We are providing increased funding, for example, toward our 
steadfast commitment to the safety of our men and women serving 
overseas.
    These dollars will allow us to continue to address our 
infrastructure needs including the construction of new, secure 
facilities and the continuing refurbishment of existing ones.
    These dollars also provide the means to improve security 
operations--including the hiring of additional security officers who 
are essential to the prevention and deterrence of terrorist attacks 
against our embassies, such as those that occurred in Nairobi and in 
Dar Es Salaam.
    We will not be deterred by such attacks from doing our job in the 
world--but we will take measures to protect our people.
    The President's budget also provides funds for modernizing--and in 
some cases acquiring for the first time--the required information 
technology for the conduct of foreign affairs.
    These dollars will allow us to modernize our secure Local Area 
Network capability, including e-mail and word-processing. Likewise, 
they will allow us to provide open access channels to the Internet so 
that our people can take full advantage of this enormously important 
new means of communication and research. This access will also increase 
communications and information sharing within the foreign affairs 
community.
    Mr. Chairman, this development alone has the potential to 
revolutionize the way we do business.
    Take for example the great products turned out by the Foreign 
Broadcast Information Service, or ``FBIS'' as we call it.
    No longer will an ambassador or political or economic officer in 
one of our embassies have to wait for the bound copies to arrive by 
courier or mail at his desk or office, often delaying the hottest, most 
recent news.
    Switching on the computer, accessing the Internet, and clicking on 
the FBIS account puts the latest news from in-country and regional 
newspapers and periodicals at your fingertips almost instantly.
    Similarly, clicking onto your e-mail account allows you to query 
any subject matter expert in the system as swiftly and securely as 
modern technology permits.
    When I arrived in the Transition Office at State in December of 
last year, the first thing I put on the table behind my desk was my 
computer with access to my e-mail account.
    I didn't want to be out of touch for an instant.
    We are talking of course about unclassified communications. But 
unclassified communications are a considerable part of our everyday 
routine.
    As you know, we need secure methods of communications also. And 
with the President's budget we will continue installing these secure 
methods everywhere we need them.
    The Department of State intends to exploit fully the ongoing 
technology and information revolutions.
    Our long-term investment strategy and ongoing acquisition of new 
technology will continue to address the many information needs of our 
foreign policy professionals.
    I have personally committed to this transformation and the 
President's budget for 2002 is the next step toward fulfilling that 
commitment.
    I have also personally committed to reinvigorating the Foreign 
Service--an arm of our professional public service apparatus every bit 
as important as the Army, Navy, Marine Corps, Air Force, or Coast 
Guard.
    To do this, we need to hire more of America's brightest and most 
talented young people who are committed to service.
    And we will only be successful if we change how we recruit, assess, 
and hire Foreign Service officers. And we are doing that. We also need 
to be smarter about how we market the State Department if we are to win 
the fight for talent.
    Funding alone will not solve our human resource challenges. We must 
create a place of work that can compete with our higher paying private 
sector competitors for the very best young people America has to offer.
    And I assure you we will, by providing a career that rewards 
innovation, recognizes achievement, and demands accountability and 
excellence. With your help we will win the fight for talent and that 
victory will be reflected every day in America's foreign policy.
    The President's budget provides the dollars to hire a significant 
number of new Foreign Service officers so we can establish a training 
float--a group of FSOs that will begin to relieve some of the terrible 
pressures put on the conduct of America's foreign policy by the 
considerable shortage of FSOs we are currently experiencing.
    Mr. Chairman, there are other areas of the President's budget that 
I want to highlight in addition to embassy security, construction and 
refurbishment; information technology; and hiring of new people for the 
Foreign Service.
    These are the program areas that must be funded to advance 
America's foreign policy interests overseas--the backbone of our 
foreign affairs.
    These are programs aimed at restoring peace, building democracy and 
civil societies, safeguarding human rights, tackling non-proliferation 
and counter-terrorism challenges, addressing global health and 
environment issues, responding to disasters, and promoting economic 
reform.
    For example, the budget expands counterdrug, alternative 
development, and government reform programs in the Andean region.
    The budget provides for military assistance to Israel to help meet 
cash flow needs for procurement of U.S. defense systems, and to 
demonstrate our solid commitment to Israel's security.
    The budget fully funds all 2002 scheduled payments to the 
Multilateral Development Banks and the U.S. commitment to the Heavily 
Indebted Poor Countries debt reduction initiative.
    The budget increases funding for Migration and Refugee Assistance--
to give crucial and life-sustaining support to refugees and victims of 
conflict throughout the world.
    The budget reflects the Bush administration's leadership in 
promoting the protection of human rights, for example, in combating 
impunity for crimes against humanity in Sierra Leone.
    The budget increases resources for combating global HIV/AIDS and 
trafficking in women and children, and for basic education for 
children.
    With respect to trafficking in women and children, let me take this 
opportunity to thank you, Senator Brownback, for the amendment you 
offered in Senate debate last year, an amendment that was successful 
and that added ten million dollars in Economic Support Funds for 
efforts in the Sudan to protect civilians from attacks and from slave 
raids.
    And I would also like to note that today, March 8, is International 
Women's Day, a day set aside to honor women for their extraordinary 
achievements and important contributions to family, society, country, 
and the world.
    Mr. Chairman, the President's budget for 2002 also provides money 
to support peacekeeping operations around the world, such as those in 
Bosnia and in Kosovo.
    The budget also supports political and economic transitions in 
Africa, with emphasis on those countries, such as Nigeria and South 
Africa, that have a direct bearing on our national security and on 
those countries that have demonstrated progress in economic reform and 
in building democracy.
    Building democracy and civil societies remains a top priority of 
this administration, so our budget also supports short- and long-term 
programs to support democratic elements in countries where alternative 
voices are silenced. Toward this end, the budget increases funding for 
U.S. international broadcasting to support the free flow of information 
by providing accurate information on world and local events to 
audiences abroad.
    It also sustains our efforts to remove landmines in former war-
ravaged countries--landmines that kill and maim children and innocent 
civilians.
    The budget supports our efforts to reduce risks posed by 
international terrorism, and to halt the spread of weapons of mass 
destruction by supporting stronger international safeguards on civilian 
nuclear activity and by helping other countries to improve their 
controls on exports of potentially dangerous technology.
    The budget also provides increased funding for the Peace Corps. And 
I want to thank Senator Dodd, not only for your past service in the 
Corps, sir, but for your help last year in pushing through the 
amendment that secured an increase in funding for the Peace Corps--an 
increase that was important enough so that, in conference, the amount 
was increased even further.
    The Peace Corps is another group of bright and talented individuals 
committed to public service. There are more than 7,000 volunteers 
around the world, addressing a variety of challenges in agriculture, 
education, small business, the environment, and health matters.
    Mr. Chairman, before I conclude my prepared statement, let me call 
your attention to several areas upon which I want to place a special 
emphasis.
    In addition to what I have already highlighted with respect to the 
money for the Andean region, you know that much of that money is 
directed at Plan Colombia.
    We are asking for money to continue and expand programs begun with 
the 1.3 billion dollar emergency supplemental in FY 2000.
    Colombia is the source or transit point of 90 percent of the 
cocaine and over 50 percent of the heroin that arrives in America. 
Those percentages are increasing, by the way.
    Neighboring countries, such as Bolivia and Peru, have conducted 
effective coca eradication programs, but maintaining their successes 
will require vigilance and U.S. support.
    The Bush administration believes strongly that any successful 
counterdrug strategy in the region must include funding to bring 
greater economic and political stability to the region and a peaceful 
resolution to Colombia's internal conflict.
    We must capitalize on the ground work of programs funded thus far, 
including the expansion of Andean eradication and interdiction 
programs, sustained alternative development programs, and continued 
attention to justice and government reform initiatives.
    In addition, the President's budget requests funding for Ecuador, 
Brazil, Venezuela, and Panama, to strengthen their efforts to control 
drug production and the drug trade. Our efforts must be regional in 
scope and this money keeps them so.
    Mr. Chairman, I also want to emphasize our efforts to de-layer the 
bureaucracy at State to promote a more effective and efficient 
organization for the conduct of our foreign policy.
    We have begun an initiative to empower line officers--the true 
experts in most areas--and use their expertise to streamline decision-
making and to increase accountability.
    The current organization sometimes complicate lines of authority 
within the Department and hinders the development and presentation of a 
coherent foreign policy, and thus mars its effectiveness.
    I ask your help on this serious matter. When I want to carve out 
needless and even hurtful pieces of the current organization, I will 
need your support. I won't do it unless I am certain it is necessary, 
but when I do it I will look for your assistance and backing.
    I feel very strongly about this effort. Throughout the last 4 years 
I have seen up close and personal how American business has streamlined 
itself. This streamlining is sometimes ruthless; it is sometimes hard; 
it is almost always necessary. We need to do the same thing at the 
State Department.
    Mr. Chairman, consistent with the effort to reduce subsidies that 
primarily benefit corporations rather than individuals, our budget for 
international affairs will include savings in credit subsidy funding 
for the Export-Import Bank.
    As you know, the Export-Import Bank provides export credits, in the 
forms of direct loans or loan guarantees, to U.S. exporters who meet 
basic eligibility requirements and who request the Bank's help.
    The President's budget proposes savings of about 25 percent in the 
Bank's credit subsidy requirements through policy changes that focus 
the Bank on U.S. exporters who truly cannot access private financing, 
as well as through lower estimates of international risk in 2002.
    These changes could include a combination of increased risk-sharing 
with the private sector, higher user fees, and more stringent value-
added tests.
    These efforts at redirection anticipate that the role of the 
Export-Import Bank will become more focused on correcting market 
imperfections as the private sector's ability to bear emerging market 
risks becomes larger, more sophisticated, and more efficient.
    Mr. Chairman, there is one more issue I want to highlight here.
    I want to thank the Senate for enacting legislation to release $582 
million in arrears payments to the United Nations. This was an 
important step that I hope will soon be incorporated into legislation 
for the President's signature.
    But I also want to stress the urgency of simultaneous movement to 
lift the cap on peacekeeping payments so we do not accumulate new 
arrears.
    If we do not deliver on our end of this commitment, we will halt 
the momentum for UN reform and run up new arrears.
    Mr. Chairman, members of the committee, I believe we have an 
historic opportunity with this budget to continue--and even to speed up 
a little--the refurbishment of our foreign policy organization and, 
ultimately, of our foreign policy itself.
    I believe that is as it should be for what we are doing, finally, 
is redressing the imbalance that resulted from the long duration--and 
necessary diversion of funds--of the Cold War.
    For over half a century we found it absolutely imperative that we 
look to our participation in that titanic struggle for ideological 
leadership in the world as the first and foremost requirement of our 
foreign policy and our national security.
    Now, the Cold War is over. Now, as all of you have recognized, we 
are involved in spreading the fruits of our ideological triumph in that 
war. Now, we have need of a more sophisticated, a more efficient, a 
more effective foreign policy. Indeed too, a more traditional foreign 
policy--with the exception that there is nothing traditional about the 
information and technology revolutions nor about the speed with which 
they are bringing the potential for a wider and more prosperous freedom 
to the entire world.
    Now is the time to provide to the principal practitioners of that 
foreign policy the resources they need to conduct it.
    Thank you, and I welcome your questions.

    The Chairman. Mr. Secretary, an excellent statement. Your 
entire statement as written will be printed in the record as if 
read.
    I was sitting here thinking about Saddam Hussein. There may 
have been somewhere in history a more brutal guy to his own 
people than Saddam Hussein. I could never forget what he did to 
the Kurds, hundreds of thousands of them. There are many other 
instances, and I am a little disappointed in my and your 
friends among the other Arab states. They seem to be a little 
bit less than eager to get involved, and in the name of God and 
everything else that is holy, whatever their God is, they had 
better take stock of what Saddam Hussein is.
    By the way, you started the clock on me, and we will have 5 
minutes on the first round, and when the red light comes on, 
please be conclusive in what you are saying.
    In 1982, the Reagan administration made the six assurances 
to Congress on Taiwan, and every administration since then has 
declared them to be U.S. policy, and I am particularly 
interested about assurance number three, which is that the 
United States would not engage in advance consultations with 
the People's Republic of China, that is, Communist China, on 
defense sales to Taiwan, and I would like for you to comment, 
if you will, sir, that all of the six assurances will remain 
U.S. policy, and that there will be no advance consultations 
with mainland China, Beijing, on defense sales to Taiwan.
    Secretary Powell. They do remain U.S. policy, and we are 
now reviewing the arms sales proposal. We have a list, and have 
been going over the list from the Republic of China. I can 
assure you, I have no plans to consult with anybody in the 
People's Republic of China on what the relationship is we have 
with Taiwan or what their needs should or should not be.
    The Chairman. Are you confident that nobody else in the 
administration will consult with Beijing?
    Secretary Powell. Yes, sir, I am reasonably confident. It 
is an administration where I cannot think of any of my 
colleagues who would be so inclined.
    The Chairman. They had better not, or we will both jump on 
them at the same time.
    During your recent trip--you mentioned this in your 
remarks--your trip to the Middle East, you talked about smart 
sanctions on Iraq, and I guess we all are in favor of smart 
sanctions as opposed to dumb sanctions, but I have got to tell 
you, I am a little bit confused about smart and dumb.
    I assume that the United States will continue to object to 
any exports to Iraq that will contribute to Saddam's weapons 
program.
    Secretary Powell. Absolutely.
    The Chairman. All right. I am told that there is already $4 
billion in cash available to the United Nations escrow account 
for Iraq to buy pretty much anything Iraq needs. Is that your 
understanding, too?
    Secretary Powell. As long as the items they wish to 
purchase are not proscribed because they are weapons, or they 
might lead to the development of a weapon, or they may be dual 
use, of a nature that causes us concern. If that is the case, 
then those contracts will not be honored no matter how much 
money there is in that escrow account.
    The Chairman. Well, are you going to monitor that situation 
personally?
    Secretary Powell. Very carefully, and one of the advantages 
of the new system is that we can sort of sweep out the 
underbrush of other things that people want to argue about and 
make sure we are focusing on the important things that really 
could add to his capability.
    The Chairman. Just one further question on this. What might 
Saddam be able to buy, under smart sanctions, that he is not 
able to buy right now?
    Secretary Powell. There are probably some dual use items 
that we might be holding up. Let me just pull an example out of 
the air, which may or may not be correct, but I think it is 
illustrative, and you have seen it in the paper from time to 
time, water pumps.
    Water pumps can be used to bring water up out of a well, 
and that would benefit people. But a sophisticated kind of a 
water pump, a water pump that is of a uniquely high tolerance 
and pressure settings or what-not, that could be used in an 
industrial way, and perhaps used in the kind of plant that 
might develop weapons of mass destruction, I think what we 
would say is let water pump number one go. Let us not waste 
time arguing about that, and let us make sure we take a good 
look at water pump number two.
    The United States right now holds up about 1,500 contracts, 
and at the same time we are holding up those 1,500, the United 
Kingdom only finds 250 of those troublesome, and all of our 
other friends find only 10 or 20 troublesome. So we would take 
another look at the ones we are holding up to make sure we are 
holding them up for the real reasons of weapons of mass 
destruction and not just for another reason which is, we are 
holding them up to hold them up because there are some things 
in there that we are really going to make a point of, that all 
of our other allies do not make, or is worth making a point of.
    That has been the problem, and that is why we are getting 
such pressure, look, if we cannot do this in a smart way, as 
some call it, then let us get rid of the whole thing.
    One other point, if I may, sir. I understand your 
disappointment with respect to the Arab states, but I came back 
from my trip with all of them saying to me, and I left one of 
my Assistant Secretaries behind to visit the rest of them, we 
understand the threat presented by Saddam Hussein, and we are 
willing to work with you on the weapons of mass destruction, 
but we are getting killed in the Arab street. We are getting 
killed in the Arab population, who think we are responsible for 
hurting the Iraqi people with the sanctions regime. So this is 
a way of clearing out that argument and giving them something 
to stand for with us.
    The Chairman. I will be back.
    Senator Biden.
    Senator Biden. Thank you, Mr. Chairman. I am one of those 
who is sympathetic to what you are attempting to do with regard 
to Iraq, Mr. Secretary, in large part because I believe if 
something is not done, we will be unilaterally imposing 
sanctions.
    I am not going to take the time now, but at another time I 
will go back and drop you a note. I am very anxious to know 
what the French reaction is to your initiative, and whether or 
not what they consider to be--I am not sure they consider 
anything to be smart sanctions right now.
    Secretary Powell. I had positive discussions with my French 
colleague, and I am waiting for a further response.
    Senator Biden. I would like to move very quickly to the 
issue of the budget, your budget. We are at a slight 
disadvantage here this morning, we the committee, because as 
you well know, we have the 150 function number, but we do not 
have the account-level numbers. We inquired of your folks, and 
they indicated, and possibly with good reason, that they were 
not authorized to release any of those numbers until Monday, 
and so when you talk to us about the increase, State-Commerce-
Justice budget, that is really where those account functions 
are, and we do not know how they break out.
    Could you in the brief time I have here list for me what 
the priorities are in this sense, that you have sought roughly 
a $700 million increase in your budget which in real terms is 
about 3 percent, as I read it, Mr. Secretary, but I do not want 
to quibble over whether it is 3 or 5.
    You obviously made judgments about what are the most 
important areas you need immediately to get increases, an 
infusion of dollars. Can you tell us, not necessarily the 
numbers, but what the priorities are in your first crack at an 
attempt to put this Department in shape?
    Secretary Powell. Information technology investment, 
consular affairs, embassy security. There is a--let's see, 
those are the three that immediately come to mind. I would like 
to give you a more----
    Senator Biden. Well, no, I am sure by Monday--we have been 
assured by Monday your Department will provide those to us. We 
had your old boss here, Frank Carlucci, last week, and he made 
a very, very strong case for additional resources as well as 
reform, and he emphasized very strongly embassy security 
technology and increased investment in personnel, bringing the 
Department up to--now, it is one thing to cut the fat that 
exists in the bureaucracy, and there is some there, in my view, 
but it is another thing to have this shortfall in Foreign 
Service officers.
    And there seems to be an attitude, at least in the campuses 
I have been, there is not nearly the enthusiasm for getting 
into this line of work that I think there need be--not only 
should be, need be, and so I hope as you develop and lay out 
these priorities you will be willing to discuss them with us, 
and I am anxious to see what the actual account levels are, so 
we could more intelligently followup with questions.
    Secretary Powell. Recruiting is a part of it, and sometimes 
it does not take money, it just takes common sense. It has 
taken us 27 months--I may have mentioned this before--to 
recruit somebody from the day they say they want to join the 
Foreign Service until we get them in. Well, for young people 
today, they cannot hang around for 2\1/2\ years, so we got that 
down now to 22 months, and I want to find ways to change the 
whole recruiting system so that we can get people in a lot 
faster and get them moving into meaningful jobs.
    Senator Biden. Let me just say one thing on Korea. You 
indicated that there was a time and place of the 
administration's choosing, that what was missing was mention of 
monitoring or verification. Well, I do not think that was 
missing in my discussions with the last administration. They 
had not reached any agreement on that, but that was the next 
stage, when they were deciding whether or not to go in January, 
and they made, I think, a wise decision not to put your 
administration in the position in January of having moved to 
finalize the agreement.
    Let me just state what worries me, and if you want to 
respond, fine. What worries me is, in my experience, which is 
not that expansive, but I have been here a long time--it has 
been 28 years--the Chinese, North Koreans, even our Japanese 
allies sometimes have difficulty discerning the nuanced 
approaches that we occasionally take, or the blunt approaches 
we take.
    What I am very worried about is that this opportunity to 
find out whether or not there is any real possibility here is 
slipping away, can slip away, and the rhetoric makes a 
difference. Rhetoric, words matter, I think, particularly in 
this engagement. I compliment you on the rhetoric you have 
used, the words you have used. I just strongly urge you to move 
along as quickly as you can to decide what your policy is, and 
move on, because this could easily escape us.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Secretary Powell, this is a moment for bullet comments, to 
take full advantage of 5 minutes. Let me say first of all that 
I appreciate very much the rallies that you have held at the 
State Department, and inviting the President to come over, and 
he responded. I think this is tremendously important, and I 
applaud everything you are doing with regard to improving the 
morale and the substance of those relationships.
    I share Senator Biden's anxiety that the budget submission 
may not support all of the thoughts that you have expressed 
today as well as publicly, and I just want to say that there is 
strong support on the Republican side and the Democratic side 
to do a whole lot more, to have an ambitious budget submission, 
and I mean that sincerely. I think this is a crucial point, at 
the beginning of this administration, President Bush and your 
administration, the Secretary of State, and if the moment is 
not seized now, it is likely to be downhill from there on.
    Senator Biden. That may be the only thing there is 
absolute, total agreement on.
    Senator Lugar. We are hopeful.
    Now, having said that, specifically we have had success, 
created by our chairman and Senator Biden, with regard to 
payment of some of our U.N. dues and arrears. There is still an 
item of the 25-percent cap on peacekeeping that I believe must 
be addressed.
    I hope that you will work with the chairman and ranking 
member, with members of the committee, to fulfill what I 
believe were obligations undertaken by former Ambassador 
Holbrooke at the United Nations, and understood by many of our 
allies, who are, in fact, providing the peacekeeping, and to 
whom we owe back funds. I think this is a very important point 
to follow through.
    Second, last year, we adopted the African Growth and 
Opportunity Act. The principal work was done by distinguished 
Members of the House of Representatives. I introduced on the 
Senate side equivalent legislation, joined by many of my 
colleagues at this table. A very modest act was passed, 
inhibited largely by protectionist forces in our country, but 
nevertheless, it was a beginning, a minimal beginning to some 
addressing of the economic side of the African equation.
    I am hopeful, because I know your intense interest in that 
continent, and in an unfilled agenda, that there will be a 
full-blown program, a comprehensive approach to Africa, which I 
look forward to supporting, and I think many others would 
around this table.
    On sanctions reform, I have offered, along with many others 
in two Congresses, and am prepared to offer a third 
comprehensive sanction reform that does not eliminate 
sanctions, but gives some criteria as to how and why we ought 
to do them, some way of removing them, and some way of 
evaluating whether they are effective.
    I know that you are studying the bill that we offered last 
year that was supported by 600 firms in the USAEngage 
coalition, the American Farm Bureau, and others. I would like 
to work with you as we introduce that legislation, and hope for 
greater success on this occasion.
    I have worked with Senator Biden, and Representative 
Portman over on the House side, once again, on a renewal of the 
Tropical Forest Conservation Act for another 5 years. I think 
for a variety of reasons this makes sense in foreign policy as 
well as in the ecology. It is worth your study, I believe, or 
those of your subordinates who are involved in this, to make 
certain we do it right.
    And finally I would ask that the State Department position 
in the past administration with regard to carbon sinks, to rid 
the world of carbon dioxide, that you study that carefully. 
This is something of great consequence to American agriculture, 
for obvious reasons.
    I was sad that the negotiations on carbon sink went 
downhill after an aggressive posture by State but affected by a 
European barrage who simply want American industry to suffer. 
But nevertheless, the carbon sink idea is a good one in 
fulfilling a lot of obligations. We ought to do it in any 
event, whether we have international obligations or not. 
Insofar as we have a negotiating posture I think it is an 
important bridge, and I would say this is one area where 
American farmers come into very sharp coincidence with the 
State Department, and as supporters of American diplomacy. I am 
looking for those bridges, for obvious reasons, so I mention it 
today.
    Having said all that, there are only a few seconds for you 
to respond, but I know that you have jotted down a few of these 
things, and I am grateful to you.
    Secretary Powell. Well, thank you.
    The Chairman. The distinguished former chairman raised a 
number of good points, and I wish you would comment.
    Secretary Powell. Can I have just a few seconds to respond? 
On resources, thank you very much, Senator Lugar, and I hope 
you will keep pushing me, kicking me, nudging me in the 
direction of more resources. It of course helps my case as I 
make the argument within the administration as well.
    On lifting the cap on peacekeeping, I have been in contact 
both with the chairman and with Senator Biden on how best to do 
that, and I think it is a matter of how best to do that, as 
opposed to doing it.
    African Growth and Opportunity Act, a wonderful piece of 
work. Now we have got to implement it and make sure it happens.
    Sanctions reform, I look forward to working with you, and 
we are examining your proposals. I found some of the sanctions 
to be even more constraining, now that I have been in the job 
for 5\1/2\ weeks, than I did when I first mentioned it at the 
end of my transition period.
    Carbon sinks, if I could touch on that one, I understand 
that the administration is just now coming to grips with what 
our policy is going to be on global warming and climate, and we 
are getting ourselves ready for the next conference at the end 
of July, which we hope will not be as big a disaster as the 
last one was.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Good work, Senator. Senator Sarbanes.
    Senator Sarbanes. Well, thank you very much, Mr. Chairman. 
Mr. Secretary, welcome. We are pleased to have you back before 
the committee.
    First of all, I am just kind of curious, what is it like 
driving this gray Mercedes S-500 with the 12 cylinder engine?
    Secretary Powell. It was cool. It was very cool.
    Senator Sarbanes. I hope the King realized he was really 
getting a high-paid chauffeur there.
    Secretary Powell. Well, I felt a little awkward the next 
day, when I realized that it made the New York Times. That was 
not our intention. So I called His Majesty a day later and said 
I hoped I had not caused him any embarrassment, and he assured 
me, not at all, and come back any time, and so I look forward 
to that.
    Then, as another aside, I called another leader in the 
region who I did not have the chance to visit, and we were 
chatting about Iraq and the Middle East peace process, and at 
the end of the conversation, in order to needle me for not 
having visited that particular country, he said, you know, we 
have wonderful cars in this country, too.
    So I have to get there very soon.
    Senator Sarbanes. I want to first commend you for the 
effort you are making within the Department itself to draw the 
career people into the process. It has obviously been very well 
received. There are an awful lot of very able and talented 
people whose skills and capacities ought to be drawn upon, and 
I am delighted to see what you are doing, and I just encourage 
you in that regard.
    I think having these desk officers brief the President on 
his Mexico visit was a terrific idea, and I understand from 
various reports that it just gave a terrific boost to morale 
within the--well, certainly a boost to the morale of the desk 
officers and the more junior people. I am not altogether sure 
exactly how the senior people are taking it, but in any event--
--
    I want to echo my colleagues on your budget. It is kind of 
strange to come up here and have Members of the Congress 
telling you, you know, you ought to be seeking more resources 
rather than trying to chop you down. When George Shultz came in 
as Secretary of State he met with a number of us, and one of 
the pitches he made was the necessity of having adequate 
resources.
    Of course, we had a Republican administration and a 
Democratic Congress, but he got a good reception on the 
Democratic side to that pitch, not unanimous, but a good 
reception, and of course he had the support of Republican 
Members of the Congress because I mean, it was the Reagan 
administration, and he was able to get a good increase in the 
resources to carry out our international affairs function.
    In fact, the average over those years in current dollars is 
$27\1/2\ billion, just to put this in perspective. This was 
when you were at the National Security Council, and the point I 
am trying to make is, you know, you had more resources then to 
work with in relative terms than you have today, significantly 
more.
    I mean, you would have to have about a 12 percent increase 
in this budget you have come forward with to just reach that 
average figure, let alone some of the better years, and I dare 
say if at any point our military budget had ever reached the 
point where our diplomatic budget is--it would never have 
reached it. The outcry would have started much sooner, and the 
response would have been much more intense. It never would have 
gotten down to that point.
    But you do not have the resources, in my judgment, with 
which to do the job, and I just encourage you to push very hard 
for that.
    Now, let me make one final point and leave you with this 
question. At the end of January, there was an article in the 
Washington Post. I am going to quote from it.
    ``Two dozen leading conservatives yesterday sent a letter 
calling on President Bush to make human rights, religious 
freedom, and democracy priorities for American foreign policy, 
and urging him not to adopt a narrow view of U.S. national 
interests.
    ``American leadership must never remain indifferent to 
tyranny, must never be agnostic about the virtues of political 
and economic freedom, must always be concerned with the 
fortunes of fragile democracies,'' the letter said, and the 
same letter apparently was sent to you and to the National 
Security Advisor and to the Vice President.
    The letter also recommended support for groups promoting 
democracy and said, `U.S. nonhumanitarian aid, including 
assistance given through international lending institutions, 
should be used to promote freedom and stop tyranny. When given 
to governments, the aid should be tied to countries' 
performance on human rights,'' the group said.
    I just want to make the point for the record that that is 
the sentiment and an emphasis on priority that extends well 
beyond the conservative part of our political spectrum, and I 
think is fairly widely held here in the Congress, and across 
the country, and I guess my question is, have you all made any 
response to this letter, or what is your view on this emphasis 
with respect to our foreign policy priorities?
    Secretary Powell. I agree, I believe that our foreign 
policy should rest on the bedrock of human rights, respect for 
the individual, democracy, and nations that are moving in that 
direction. We should invest in those nations, and not invest in 
those nations that are despotic or are moving in the wrong 
direction.
    We may sometimes have to do some things with those nations 
for humanitarian concerns because there are people under those 
despots, but for the most part we should invest in those that 
are moving in the right direction, and so I agree entirely with 
the sentiment. I cannot say whether or not the letter has been 
answered.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Mr. Secretary, 
welcome. Good morning. I believe you are on the right track 
regarding sanctions in Iraq, and I would encourage you to 
continue to think broadly and deeply, as you are.
    And on that general point, Senator Lugar made some 
observations regarding trade and sanctions, and something that 
he has been very actively engaged in for many years. It is my 
understanding that you are in some stage of review at the State 
Department on all sanctions, on all certifications, on onerous 
reporting requirements. You, I believe, have significant 
support up here to help you clear out the underbrush. I wonder 
if you could give us some status report on how you are doing 
with all of those reviews.
    Secretary Powell. We are working on that, Senator. I do not 
have a date I can give you where it will be ready. We want to 
make sure that sanctions and certifications and similar 
constraints are serving their originally intended purpose, and 
they are not just burdens for us, and no longer serving the 
foreign policy interest. And this is not to say that I do not 
believe in sanctions, I believe in sanctions that are serving 
the purpose and I will always support those.
    But where they become a hindrance, and some of the drug 
certification procedures right now I think have become a 
problem, then I think we should aggressively go after them. In 
many instances there are strong constituencies for some of 
these sanctions, and it is difficult to remove the sanctions 
language, but as soon as that review is completed, you can be 
sure I will be bringing it up before this committee.
    Senator Hagel. Thank you.
    Senator Lugar also touched on carbon sinks. I have a 
general question regarding climate change. You said that the 
administration was now just coming to grips with all the 
dynamics and we understand that, but let me ask this: is it 
your intention, is it the President's intention to continue to 
keep the climate change responsibility portfolio within the 
State Department?
    Secretary Powell. Yes, although the interagency working 
groups that come together to determine our position might well 
be chaired by the NSC, because of the disparate Cabinet 
responsibilities. It really is such a complex issue that it 
goes well beyond the State Department. EPA, Treasury, Commerce, 
and a lot of others in the administration want to play a role 
in establishing a new policy, but you can be sure that State 
will continue to play a lead role.
    Senator Hagel. One of the frustrations that some of us had, 
if not many of us, in a subcommittee that I chair on this 
committee and have chaired the last 4 years, was that we could 
never get a concentrated answer to some of these, as you 
suggest, complicated questions to complicated issues. We would 
get witnesses before us who would say, well, I do not know, 
that is another department, or that is the White House, or that 
is somewhere else. I would hope that this administration, as 
you develop your process and your policy, is going to be able 
to concentrate the responsibility for this issue in the hands 
of someone. I noted the EPA Administrator saying some things 
last week, and then having to say other things in Rome, which 
probably did not reflect great credit on the administration. 
But I understand how those things work. I would hope that that 
is done fairly quickly, that you get control of that.
    Secretary Powell. We are trying. We pulled together an 
interagency briefing team that is going around to each one of 
the Cabinet officers and presenting them the same briefing, so 
we can all start off with a common understanding of the 
challenge and the dynamics and what global warming is all 
about, and now we are starting to get together to come forward 
with individual agency positions, and how do we move forward 
and come up with an administration position.
    Senator Hagel. Thank you. Let me ask a broader question 
with my last few seconds about the South American situation in 
a specific area, the Andean countries. A number of my 
colleagues and I have just recently visited Colombia and 
Ecuador. These are complicated problems, issues, dynamics. 
Regarding Plan Colombia, I support Plan Colombia. Could you 
reflect on that a bit as to where you are, the position of the 
President on that part of the world, what we can look for from 
you in further support, and further action regarding South 
America?
    Secretary Powell. We of course support Plan Colombia, and I 
think there has been some degree of success in the destruction 
of some of the crops in the Putumayo Valley, so we will 
continue to support Plan Colombia.
    But we feel just as strongly that you cannot deal with a 
problem in one place without it spreading to other parts of the 
region, so in subsequent years we will be talking about an 
Andean strategy, and there is money in the budget for that 
Andean strategy.
    We will be talking about how the Free Trade Association of 
The Americas plays into this, how Andean trade preference 
extension plays into all of this, so we will try to come up 
with a comprehensive strategy that deals with the whole region, 
and not just singularly focusing on Plan Colombia.
    Senator Hagel. Thank you.
    The Chairman. Senator Kerry. Before you begin, John, there 
is a rollcall vote scheduled on the floor at 11:50 a.m. I just 
wanted Senators to be aware of that.
    Senator Kerry. Thank you, Mr. Chairman. Mr. Secretary, 
welcome. Good to see you.
    Secretary Powell. Thank you, Senator.
    Senator Kerry. Mr. Secretary, I must confess to you that I 
was puzzled and somewhat troubled by the decision made 
yesterday to announce that the administration did not intend to 
immediately sort of, quote, ``pick up where the Clinton 
administration left off,'' which really means negotiating. I 
mean, that was what was going on, it was a negotiating process.
    On Tuesday of this week you were quoted as saying the 
administration, the Bush administration did intend to pick up. 
By the end of the meeting with President Kim it was stated that 
there was some question about whether or not agreements had 
been lived up with. There is only one agreement, and it seems 
to me the only way to proceed is to negotiate.
    What changed in those 2 days, and why is it that you would 
not send a signal to North Korea that the direction they have 
been moving in is, in fact, welcomed, and that you welcome the 
concept of a dialog?
    Secretary Powell. I think there is less difference there 
than meets the eye. Obviously, when you come in from replacing 
a previous administration, things are left on the table. What 
was left on the table from North Korea was a set of ideas with 
respect to reducing their missile production, their 
proliferation of this kind of system, and Dr. Rice and I were 
briefed extensively by the outgoing administration in the 
transition period.
    What was missing in what had been done was how one would 
put in place any kind of monitoring or verification regime, and 
the North Koreans had not engaged on that in any serious way in 
the period of the Clinton administration. So where we are is 
that those elements are still there. They have not been 
dismissed, they have not been rejected, but the President said, 
and we all agree, that we want to take some time in reviewing 
what was accomplished in the previous administration, in 
determining what we think we are going to need with respect to 
monitoring and verification, and seeing whether there are other 
things that ought to be part of such a discussion.
    For example, there is a huge army poised on the 
demilitarized zone pointing south that is probably as great a 
threat to South Korea and Seoul and regional stability as are 
weapons of mass destruction. Should that be included in a 
negotiation with the North Koreans, and President Bush made 
that point to President Kim yesterday.
    So what came out of yesterday is that President Bush will 
continue our policy review. We will do it in a measured way, 
with clear-eyed realism with respect to the nature of the 
regime and the single individual who has all authority within 
that regime, and at a time when we are ready, and a time when 
we are prepared to engage, we will then engage at that time, 
but there was a suggestion that we were getting ready to do it 
imminently, and it was that suggestion that we were trying to 
beat down.
    Senator Kerry. At this point, can you state whether or not 
you support, whether or not the Bush administration continues 
to support the 1994 agreed framework?
    Secretary Powell. We are monitoring the agreed framework, 
and we have continued to support the 1994 agreed framework.
    Senator Kerry. So the administration will support the 
continuation of the shipments of fuel oil, and construction of 
the light water reactors?
    Secretary Powell. We will do so, as we also at the same 
time review some concerns that exist with respect to how the 
light water reactors might be used, and what kind of 
supervision it will be under, and is that supervision adequate 
to the kinds of monitoring and verification regime we are 
interested in.
    There are others who have also suggested perhaps one might 
want to substitute different kinds of energy-generating 
capacity. So for the moment we are in accord with the 1994 
agreement, but that does not prevent us from looking at aspects 
of it that we might wish to revisit or change.
    Senator Kerry. Well, obviously the administration can and 
obviously will make up its own mind as to when it feels ready. 
I think, given the tensions with respect to China and the 
questions on the entire peninsula, the messages we send are 
awfully important in terms of whether we are sort of open to 
engagement.
    If we start to--I think you are free to raise anything you 
want at any time you want in the course of that, but I just 
have a sense that we may be sending messages that are also 
subject to misinterpretation. In that vein, I would ask you how 
you react to the military expenditure increase in China, and 
likewise the issue of--my time is up, but the issue of whether 
or not you are satisfied with their answer with respect to 
fiber optic transfer to Iraq, how that fits in the picture.
    The Chairman. The chair will allow time for you to answer 
this.
    Secretary Powell. Thank you, sir. On Korea, I think the 
important message that came out of yesterday's meeting is that 
President Bush appreciated what President Kim Dae Jung has done 
with respect to opening that door, opening that window, as it 
is often referred to, and supports him, and supports the 
additional things he is going to be doing this year with 
respect to that second summit, while at the same time we review 
what it is we plan to do with respect to our engagement with 
North Korea, and when we decide that it is the appropriate time 
to reengage.
    With respect to China, a 70-percent increase is probably 
leading to a 50-percent increase in total over the next several 
years. We want to discuss with the Chinese the nature of this 
buildup. We are going to encourage them to have more 
transparency in what they do with their defense programs, as we 
have transparency in ours.
    I do not view it as a break-out investment, where suddenly 
China is on the march as an enemy, but it is, of course, 
something we have to look at carefully, make sure we keep our 
forces in the region up to the best possible standard, and we 
invest in them, because we really are the balance wheel of 
stability in that part of the world.
    With respect to the fiber optics case, China has now said 
that they have told the companies that were in the area doing 
fiber optics work to cease and desist. We are still examining 
whether or not it was a specific violation of the sanctions 
policy, and if it was, we will call that to the attention of 
the sanctions committee so that they can take appropriate 
action with respect to China.
    Senator Kerry. Thank you, Mr. Secretary.
    The Chairman. Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary.
    Let me say that I think it is very appropriate for you and 
the new administration to take a little pause in these issues, 
take a look at where we are. Times change, and I think we need 
to take a little shot at some of these things.
    For instance, I am very encouraged that we have some 
openings in North Korea, but I think we have to move fairly 
carefully, and require some more confirmation that we are 
having something on the other side that occurs as we move, 
certainly to stay with our friends in South Korea and in Japan 
as we move forward.
    I am also one that will not quite join in the chorus for 
more and more money. I think 5.5, 5.3 percent increase is going 
to be more than most agencies have in this budget, and I would 
hope that, as is generally the case, you take a look at how it 
is managed now. We can look for different ways. Times have 
changed, and efficiencies and so on. How many total full-time 
employees are there?
    Secretary Powell. If you add it all up, with overseas and 
here in the United States, Foreign Service nationals approach 
40,000, roughly.
    Senator Thomas. A total of 40,000. What was the dollars in 
Colombia? There were some commitments last year to billions of 
dollars. Where are we on that?
    Secretary Powell. A total of $1.3 billion was the U.S. 
contribution to Plan Colombia, a roughly $7 billion program, 
the rest of the money being made up by European contributors, 
as well as Colombia's own contribution of a little--close to $3 
billion to the effort. Ours was principally for the 
helicopters, and the training for the helicopters.
    Senator Thomas. So there was a $7 billion effort?
    Secretary Powell. The overall program was intended to be 7 
or 7\1/2\, as I recall.
    Senator Thomas. Have the participants contributed all that 
money?
    Secretary Powell. No. There has been a shortfall, so far, 
with the European contribution, and the Colombians are still 
striving to make the contribution they promised to the program.
    Senator Thomas. What is the status of appointments, in 
terms of Under Secretaries?
    Secretary Powell. You are looking at him, sir.
    Senator Thomas. That is what I was afraid of.
    Secretary Powell. We talked about this earlier. It is 
really the ethics, and the conflict of interest clearance that 
is taking the time, properly to make sure we put in place a 
team that is great, and there are no problems, and the chairman 
has given me his guarantee that as soon as I get them up here, 
he will get them confirmed.
    Senator Thomas. Have you had an opportunity to look at the 
Indonesia situation?
    Secretary Powell. Just recently I have started to turn my 
attention there. It is a very troubling situation, and I think 
it is an area that is not that well-known in the United States, 
and the consequences of failure in Indonesia are very great, 
not only for the region, but for the world.
    Senator Thomas. I think they are. ASEAN, much depends on 
it. I think you are right, it has been sort of out of the 
vision, but it is very important too, obviously.
    Have you had a chance with respect to the People's Republic 
of China and Taiwan to have a position on the agreements that 
have been made, the communications that have been made with 
respect to Taiwan, Taiwan agreements?
    Secretary Powell. Yes, sir, I have. The 1972--any specific 
agreements you have in mind, sir?
    Senator Thomas. The communiques, just the communiques.
    Secretary Powell. Yes, sir. I am familiar with them. I 
think we will continue the policy that has existed for a number 
of years, the one China principle, and that the ultimate 
resolution of how one China evolves is up to the parties in 
power, and must not be imposed by force. They will have to deal 
with that amongst themselves over time, and we maintain our 
commitment to Taiwan to ensure that it has defensive means, so 
that this democracy can feel secure behind its Armed Forces, 
also in the knowledge that it has a friend in the United 
States.
    Senator Thomas. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Feingold.
    Senator Feingold. Mr. Secretary, it is good to have you 
here, and let me first compliment you on your comments on Iraq 
and the Iraq sanctions. My constituents will be very pleased to 
hear such a thoughtful series of ideas and comments about that 
policy.
    Secretary Powell. Thank you, sir.
    Senator Feingold. Let me ask you about West Africa. There 
has been consistent bipartisan support in Congress for ending 
the cycle of impunity in West Africa, and for holding those 
responsible for grave human rights abuses accountable for their 
actions. But when I was in Sierra Leone last month, I did hear 
a number of people say, Mr. Secretary, or voice concerns about 
the State Department's willingness to identify funds for the 
first year's commitment to the court, and I do see that in your 
written remarks you make reference to it, so if you could just 
assure me that this administration will commit to supporting 
the special court for Sierra Leone, and also its Truth and 
Reconciliation Commission.
    Secretary Powell. I think I can give you that commitment, 
Senator, but let me go back and find out what reticence may 
exist within the Department.
    Senator Feingold. Thank you, and then, with regard to the 
Democratic Republic of Congo, Joseph Kabila's strange rise to 
power at least appears to have opened up new possibilities for 
peace in the DROC, but some observers have suggested that the 
United States may not actually want to see the Lusaka Accords 
implemented, because we are unprepared to support a 
peacekeeping mission in this difficult region. Can you assure 
me that that cynical view is inaccurate, and what steps is the 
United States willing to take to support peace in Central 
Africa?
    Secretary Powell. We support the Lusaka Accords. I met with 
President Kabila a few weeks ago, and also with President 
Kegami, and encouraged them to respect human rights, start to 
disengage their forces and get back to the process of peace to 
stop the suffering of the people in the Democratic Republic of 
the Congo.
    I am pleased to see that in recent weeks there has been 
some movement, some disengagement of forces, and some hope for 
the process to begin, and I notice that Secretary General Annan 
is now prepared to send in some peacekeepers, so we are 
prepared to back that, but we at the moment do not have a 
commitment, nor have we made a commitment to provide U.S. 
peacekeepers to such forces.
    Senator Feingold. Fair enough, and I was not asking about 
actually providing U.S. peacekeepers, but our support for what 
the U.N. is attempting to do.
    Secretary Powell. Yes, sir.
    Senator Feingold. Let me switch to Indonesia and East 
Timor, which Senator Thomas mentioned. More than a year after 
the 1999 violence in East Timor, the Indonesian Government has 
not indicted a single person in connection with that violence, 
despite the fact that many of the suspected organizers are in 
fact living in Indonesia, many of them in West Timor.
    Kofi Annan said in January 2000 that the Indonesian courts 
would be given a chance to handle the cases first, but he did 
not rule out an international tribunal if the Indonesian 
judicial process proved not to be credible.
    As a permanent member of the United Nations Security 
Council, will the United States push for an international 
tribunal on East Timor now that Jakarta's unwillingness or 
inability to prosecute anyone is really quite manifest?
    Secretary Powell. That is certainly an option. I think what 
I have to do on that one, Senator, is let me go back and study 
the ramifications, and study the current state of play, and 
then give you a more definitive answer for the record.
    Senator Feingold. I would appreciate it.
    [The following response was subsequently received:]
            indonesia: international tribunal for east timor
    Question. More than a year after the 1999 violence in East Timor, 
the Indonesian Government has not indicted a single person in 
connection with that violence, despite the fact that all the suspected 
organizers are in fact living in Indonesia, most of them in West Timor 
and Jakarta. Kofi Annan said in January 2000 that the Indonesian 
Accords would be given a chance to handle the cases first, but he did 
not rule out an international tribunal if the Indonesian judicial 
process proved not to be credible. As a permanent member of the United 
Nations Security Council, will the United States push for an 
international tribunal on East Timor now that Jakarta's unwillingness 
or inability to prosecute anyone is really quite manifest?

    Answer. As I indicated at the committee hearing, establishing an 
international tribunal for East Timor remains an option. We are very 
concerned about the continued lack of accountability for human rights 
abuses committed by the Indonesian military and pro-Indonesia militias 
in East Timor in 1999. We will continue to urge the Indonesian 
Government to fulfill its commitment to pursue its internal 
investigation in a vigorous, expeditious and credible fashion.
    The Indonesian Attorney General's office and the United Nations 
Transitional Administration in East Timor (UNTAET) are conducting 
concurrent but separate investigations into these abuses. The United 
States has provided technical assistance to both. We are convinced that 
the best way forward at this time lies in supporting and encouraging a 
credible Indonesian investigation and a strong and complementary UNTAET 
investigation.
    We believe that these two processes could form the foundation for 
respect for and growth of the rule of law in what should soon be two, 
neighboring countries. If these processes fail, we will consider other 
options to ensure that credible justice and accountability are 
achieved.
    We will continue to monitor closely the progress of the Indonesian 
government's and UNTAET's investigations, and will continue to support 
efforts to pursue and to hold accountable those responsible for human 
rights abuses. I welcome your interest in this issue and would welcome 
your support for our efforts.

    Senator Feingold. Do you believe it is possible, with 
regard to China, for the United States to mobilize sufficient 
support at the commission in Geneva this year to overcome a 
Chinese-sponsored no-action motion to prevent a debate on their 
human rights record, and what other methods will the United 
States take to press the Chinese on human rights issues in the 
year ahead?
    Secretary Powell. I press my Chinese interlocutor at every 
occasion. I met with the new ambassador and made sure he 
understood that human rights will remain in a place of honor 
within U.S. foreign policy goals, and we are looking forward to 
the visit of the Vice Premier in a few weeks time.
    We will be aggressively pushing the resolution in Geneva. 
It will be tough. It will be very difficult. The situation is 
more difficult this year than it was last year, but we will be 
giving it our every effort.
    We just selected a delegation to represent us there, of 
people who have strong views on human rights, and I will be 
spending a good part of my time from the middle of March until 
the middle of April to press the case.
    Senator Feingold. Thank you, Mr. Secretary.
    [The prepared statement of Senator Feingold follows:]

           PREPARED STATEMENT OF SENATOR RUSSELL D. FEINGOLD

    Secretary Powell, I want to welcome you again and to thank you for 
being here today. The administration's ``budget blueprint'' does not, 
of course, contain a great deal of detail at this point. But this is 
still a very valuable opportunity to discuss foreign policy priorities, 
which will eventually be reflected in our international affairs budget.
    I have been heartened by many of your recent statements and by your 
obvious commitment to reinvigorating the State Department and the 
foreign service, two critically important and long-neglected 
institutions. But the budget numbers that we do have suggest that there 
are some difficult choices ahead. Compared to the fiscal year 2001 
appropriated level of $22.7 billion, the administration's budget 
blueprint represents a 3% increase in real terms, but is a 3.8% and 
2.9% decrease compared to fiscal years 1999 and 2000 respectively. The 
priorities that you have identified--embassy security, information 
technology, and human resources are clearly important, and I commend 
you for pursuing them.
    But the United States confronts vast challenges and great 
opportunities abroad in this new century, and we cannot afford to 
ignore regional needs and transnational issues that also deserve 
attention from the administration and within the 150 account. As the 
sole remaining superpower, and as a country committed to the integrity 
of our national values, the United States must strive each day to 
balance the imperatives of order and justice around the world. We must 
work to protect human rights, to stop environmental degradation, to 
fight infectious disease, and to combat international crime and 
corruption.
    I recently returned from a trip to Nigeria, Sierra Leone, and 
Senegal, and I can say unequivocally that the United States has a 
tremendously important role to play in the region, and that we neglect 
it only at our peril. Likewise, as new prospects for stability emerge 
in central Africa, the United States must remain engaged. And in China, 
Indonesia, Colombia and the Middle East, policy-makers face 
extraordinarily difficult situations, and the critical importance of 
getting it right, maintaining a highly principled approach, and putting 
the appropriate resources behind our policy.
    I look forward to discussing these crucial policy priorities with 
you today.

    The Chairman. Thank you. Senator Frist.
    Senator Frist. Thank you, Mr. Chairman.
    Mr. Secretary, thanks for your leadership, your energy, 
your commitment to Foreign Service officers within the State 
Department. You just travel throughout Washington, you are 
running into people who reflect and respect your commitment to 
them as Foreign Service officers, and their expertise and their 
skills.
    I want to turn our attention briefly to what I regard as 
one of the most dangerous humanitarian, economic, and 
development crises of our time, and that is the global epidemic 
of AIDS, AIDS/HIV. The facts, you know them well, they are 
sobering. AIDS killed ten times the number of people in Africa 
than all of the armed conflicts combined. In eight countries at 
least one-third of all 15-year-olds today, eight countries, 
that will die of AIDS.
    I have a 15-year-old, and every time I look into his eyes 
and I think about this, I think about the 85 percent chance 
that he would die from that if he were in one country, 
Botswana. Some 13 million orphans already, 40 million orphans 
over the next 10 years, all of this dramatically undermining 
the social structures and reversing economic development, 
wiping out a whole era of people in the most productive years 
of their lives.
    You look at Russia, you see the largest percent increase in 
AIDS cases. You look at India, that has the largest number of 
HIV/AIDS cases in the world as a country today. The statistics 
go on and on.
    David Gergan wrote recently, the struggle against AIDS and 
related diseases in Africa represents one of the greatest moral 
tests of our time.
    You put all that together, and we have no choice but to 
respond. It is the appropriate, it is the right thing to do. 
How we do it, where we do it in our Government, what entity, is 
it under your Department amidst the 40,000 people somewhere? It 
is clear we have got to have a focus because the medical 
profession, the public health infrastructure, the 
pharmaceutical companies, our Government, the NIH. Nobody can 
do it alone.
    You have reached out from your very first briefings at 
State, in that first meeting in Africa, and starting long 
before that have and are rapidly becoming, and are, I guess, 
already are an in-house expert on this overall challenge. I am 
delighted to see in the budget, which is the focus of our topic 
today, that the President's budget does provide increases to 
the Agency for International Development for activities to 
combat global HIV/AIDS, a welcome development, and I look 
forward to working with you and the administration on the 
details.
    The Chairman and Senator Kerry and I and others on this 
committee put forth the Global AIDS and Tuberculosis Relief Act 
of 2000. Last year past, Congress doubled our foreign 
assistance appropriations for AIDS, all of which is real 
progress. More needs to be done in terms of funding. We need to 
redouble those efforts.
    But funding itself, as you well know, is only part of the 
solution, and it is going to take United States leadership of 
the President, other senior officials, if we are going to 
really adequately deal, and appropriately deal with this 
crisis.
    The foreign policy, the international economic implications 
of the AIDS epidemic demands high-level engagement, and you are 
at that highest level. It is going to have to be by the 
Department of State, elsewhere in the administration possibly.
    A specific Secretary-supported function might well serve to 
focus all of these U.S. foreign policy developments, and would 
help coordinate the interagency efforts that are being made on 
behalf of Labor, on behalf of Health and Human Services, DOD, 
USAID, as well as State, all of which have mandates and 
budgets, and that really leads me to my question. How do you 
see the administration, and I guess more specifically the 
Department of State, dealing with what has to be a coordinated 
and focused approach in response to this international HIV/AIDS 
crisis?
    Secretary Powell. Thank you, doctor, and I agree with 
everything you said with respect to the nature of this crisis 
that is before the world. It is an economic crisis, a health 
crisis, a security crisis, the destruction of families, 
cultures, tribes, nations, all of that is there, and the more 
time I spend on this, the worse it gets, and one country that I 
know just slipped your mind, or one area where it is going to 
get even very, very much more difficult is close to home, and 
that is in the Caribbean, where it is really starting to pick 
up, and so all of that is true.
    I am looking at how we are organized. I have taken one 
person, a trusted agent of mine, and said, this is your job. 
Find out how we are organized for battle against this within 
the Department. Come forward, show me what we are doing, 
because it is everywhere. It is all over the place. Show me 
where it is, how do I pull it together, how do I give it focus 
so I can see it all the time, and then from that launching 
point I can then figure out how the rest of the administration 
should also join this in a very, very direct and coordinated 
way.
    I see the problem in the same terms you do, Senator.
    Senator Frist. Thank you, Mr. Secretary. I have loved 
working with you, and looking forward, I think we can make real 
inroads by pulling the partnerships together.
    Secretary Powell. Thank you, sir.
    The Chairman. Senator Torricelli, last but not lest.
    Senator Torricelli. Thank you, Mr. Chairman, very much.
    Mr. Secretary, welcome. I would like, if I could, to 
present you with three issues, and with no thread through them, 
and if you would then respond to each of the three.
    The first to raise with you, ironically, given that you are 
America's most famous soldier, and I have never had the honor 
of wearing its uniform, we all feel very saddened by what 
happened with the U.S.S. Greenville. It was a terrible tragedy, 
with a needless loss of life. The President of the United 
States has apologized, the Secretary of Defense has apologized, 
I know you have apologized. I think all Americans are very 
saddened.
    I was surprised that added to the board of inquiry was a 
Japanese admiral. If there was fault by American servicemen, I 
know they will be held accountable. Every American would expect 
no less. I believe the record of the United States for being 
responsible for our misdeeds has historically been very good, 
is particularly good in comparison with some other nations that 
have not ever accounted for their histories.
    I believe this is a troubling precedent, and as much as I 
want to see justice done, I do not believe that American 
servicemen and women should ever be cannon fodder for dealing 
with a diplomatic problem. I do not know if there is precedent 
for such actions, but I believe it is a troubling situation, 
and casts some questions of credibility on the outcome of these 
proceedings, given that there was a foreign national who was 
participating, even if on a nonvoting basis. I leave that with 
you, and would invite your response.
    On two other issues, Senator Hagel noted that we are 
clearing the underbrush in dealing with American sanctions. I 
think we all recognize the Congress' intentions that there be 
no American financing of exports to Cuba, this, of course, not 
being the underbrush, but a virtual giant redwood, I assume we 
have nothing to fear from the administration revisiting that 
issue. The Congress has been clear that, while there would be 
food exports, we would not use American taxpayers' dollars to 
help underwrite the Castro Government.
    And finally, while otherwise pleased with the beginning 
weeks of the foreign policy of the Bush administration, I would 
like some clarification of the joint press conference with Tony 
Blair in which the President said, and I quote, ``I am going to 
wait and be asked by the Prime Minister with reference to 
American involvement in the peace process in Northern 
Ireland.''
    I would hope the administration would be considering having 
a mediator to succeed Senator Mitchell, and have the United 
States fully engaged in that process, because I believe that we 
have been so helpful.
    And while I promised that was my last point, I simply want 
to identify myself with Senator Kerry's comments with regard to 
the North Korean arrangements from 1994. I think the promise is 
so great, with that rather peculiar regime, for a breakthrough, 
at least there is a potential, that our credibility must remain 
paramount. While any issue can be revisited on a mutual basis, 
I hope there will be every effort to make sure that we keep to 
the letter of the agreement on the 1994 understanding with the 
North Koreans, so they can provide a framework for going 
forward to other and even more important arrangements.
    Secretary Powell. Thank you, Senator. On your first point, 
the Greenville, from my own experience, and knowing nothing 
about how they formed their court of inquiry, I am absolutely 
sure that any accountability or any judicial action or any 
nonjudicial administrative action that would come from this 
would be solely in the hands of American officers, and not the 
Japanese admiral.
    His exact status there, I really think I need to provide an 
answer for the record from the Secretary of Defense, and not me 
speculate on.
    Senator Torricelli. Mr. Secretary, could we be assured, 
however, that this judgment was reached by the military alone, 
without State Department or other U.S. Government involvement 
by the United States, to invite the Japanese admiral?
    Secretary Powell. I will ask the Secretary of Defense how 
that judgment was reached. I was never involved in it, and I do 
not think any of my staff were involved in it, or if they were, 
they did not tell me about it. We would not have pressed the 
case in that way. But we will give you a complete answer for 
the record.
    [The following response was subsequently received:]

       JAPANESE PARTICIPATION IN USS GREENVILLE COURT OF INQUIRY

    Question. Why did the membership of the USS Greenville Court of 
Inquiry include a Japanese Admiral? Was the State Department or any 
other U.S. Government agency involved in the decision to invite 
Japanese participation on the court?

    Answer. U.S. Navy and Department of Defense regulations governing 
the conduct of Courts of Inquiry permit inclusion of non-U.S. advisors 
to the court. The Commander of the U.S. Pacific Fleet, following 
consultation with the Department of State, invited the Government of 
Japan (GOJ) to appoint a senior Japanese Maritime Self-Defense Forces 
officer to serve in this non-voting capacity during the Greenville 
inquiry. The invitation was extended in an effort to enhance the 
court's transparency, to address GOJ questions about the incident, and 
to mitigate subsequent criticism of the court's findings.

    Secretary Powell. We are not reviewing our policies with 
respect to exports to Cuba, and the third point, Northern 
Ireland envoy, we are following the developments very closely 
and identifying somebody in my Department who will take this on 
as a primary additional duty, and be ready to serve in a 
communication role and keep us in touch with what is going on.
    I am not clear yet whether we think there will be a need 
for somebody like a George Mitchell, but that certainly is 
something we can keep under advisement if the situation moves 
in the way that suggests it takes that kind of high-level 
special envoy involvement.
    Senator Torricelli. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Secretary, you have done well. It is 
always good to see you.
    Senator Biden. Mr. Chairman, may I have 30 seconds before 
you close, not even that?
    The Chairman. Sure.
    Senator Biden. Is it appropriate that we can submit some 
questions in writing?
    The Chairman. Oh, absolutely. I think you expected that.
    Secretary Powell. Yes, sir.
    The Chairman. We have a lot of committee meetings working 
on crucial things, otherwise there would have been a 100 
percent attendance this morning, and I am sure that there is 
going to be a lot of questions filed for you in writing, and I 
know you will respond to them forthwith.
    Let me say that I appreciate the administration's strong 
comments opposing the International Criminal Court, and I will 
have a further comment with you about that. But in general it 
has been good to have you with us this morning, and if there be 
no further business to come before the committee, we stand in 
recess.
    Secretary Powell. Thank you, sir.
    The Chairman. Thank you, sir.
    [Whereupon, at 12:06 p.m., the committee adjourned.]

                              ----------                              


             Additional Statement Submitted for the Record


             PREPARED STATEMENT OF THE FOURTH FREEDOM FORUM

     NEW STUDY DETAILS ``SMART SANCTIONS'' PROPOSALS TO DISARM IRAQ

  Secretary of State Powell testifies on Iraqi sanctions today before 
                            Senate committee

    Washington, DC.--A new study that examines options for 
restructuring U.N. sanctions in Iraq \1\ may preview coming Bush 
administration policy initiatives intended to minimize hardships for 
innocent civilians and strengthen controls over Iraqi weapons programs. 
An advance release of the study comes just as Secretary of State Colin 
Powell is due to testify today before the Senate Foreign Relations 
Committee.
---------------------------------------------------------------------------
    \1\ This study is available via Internet at: www.fourthfreedom.org
---------------------------------------------------------------------------
    The new report by the Fourth Freedom Forum and the Joan B. Kroc 
Institute for International Peace Studies at the University of Notre 
Dame, and originally set for release Monday, proposes a narrowly 
defined and tightly implemented set of ``smart sanctions'' focusing on 
weapons and military-related goods, as an alternative to the current 
faltering comprehensive sanctions regime.
    The study's authors, who have met extensively during the past four 
months with government officials and international experts from the UN, 
U.S. and allied nations, write that a modernized sanctions regime would 
need to be sustainable over the long term through the support of key 
United Nations Security Council members and frontline states. It would 
remain in effect until such time as Iraq complies fully with the 
relevant Security Council resolutions and fulfills its disarmament 
obligations, the study says.
    High among the expectations for Powell's testimony is the new 
administration's position on weapons inspections in Iraq. Last week, 
during a trip to the Middle East, Powell suggested changes in U.S. 
sanctions policy toward Iraq. Meanwhile, Vice President Richard Cheney 
and National Security Adviser Condoleezza Rice said in separate 
interviews published in the past few days that the return of U.N. arms 
inspectors in Iraq was not a critical part of continued U.S. pressure 
on Iraq and that the U.S. has no choice but to push for a new sanctions 
policy.
    Fourth Freedom Forum and the Joan Kroc Institute, two leading 
research centers that focus on economic sanctions and weapons control 
as a means of preventing international conflict, sponsored the study, 
written largely before Powell's trip. The full report will be available 
shortly at www.fourthfreedom.org. Among the conclusions the study 
reaches are:

Embargo Arms, Not Trade
  <bullet> Revamp current embargo in favor of a sharpened sanctions 
        system aimed at two key targets--the control of financial 
        resources generated by the export of Iraqi oil, and the 
        prohibition against imports of weapons and dual-use goods;

  <bullet> Maintain strict controls on Iraqi oil revenues and military-
        related imports, but permit trade in civilian consumer goods to 
        flow freely;

  <bullet> Contract out to commercial companies the responsibility of 
        certifying and providing notification of civilian imports into 
        Iraq;

  <bullet> Permit the ordering and contracting of civilian goods on an 
        as-required basis rather than in 180-day phases.

Maintain UN Financial Controls
  <bullet> Continue to channel all Iraqi oil revenues through the UN 
        escrow account;

  <bullet> Contract with an independent multinational oil brokering 
        firm, through which all records and payments for permitted oil 
        purchases would pass, to manage the sales of Iraqi oil and 
        monitor any illegal payments or surcharges;

  <bullet> Establish a new compensation mechanism to provide economic 
        assistance to neighboring states and begin paying Iraq's 
        external debt;

  <bullet> Freeze the personal financial assets of Saddam Hussein and 
        his family, of senior Iraqi political and military officials, 
        and of those associated with weapons production programs.

Strengthen Verification and Monitoring
  <bullet> Tighten land-based monitoring by establishing at major 
        border crossings into Iraq fully-resourced Sanctions Assistance 
        Missions, modeled on the UN sanctions experience in Yugoslavia;

  <bullet> Establish a system of electronic tagging of approved dual-
        use imports;

  <bullet> Create a special investigative commission to track down and 
        expose sanctions violators;

  <bullet> Assist member states in establishing effective penalties for 
        companies and individuals that violate the ban on exporting 
        weapons and dual-use items to Iraq;

  <bullet> Require Iraqi-bound cargo flights to submit to UN 
        inspection.


    ``No single element of this smart sanctions package stands alone in 
wielding sufficient coercive clout,'' the study says. ``But linked 
together such controls provide a tightened sanctions regime.''
    To discuss the findings of the study or for comment on ``smart 
sanctions'' proposals, please call:

          David Cortright, Fourth Freedom Forum President and Joan B. 
        Kroc Institute faculty fellow, at (800) 233-6786 [please 
        contact his assistant Ruth Miller at extension 10];

          George Lopez director of policy studies and senior fellow at 
        the Joan B. Kroc Institute, at (219) 631-6972; (219) 315-7118-
        cell

          Alistair Millar, Fourth Freedom Forum Vice President, at 
        (202) 393-5201--work, (202) 716-4716--cell.

    The Fourth Freedom Forum's goal is a more civilized world based on 
the force of law rather than the law of force. Through scholarly 
research, public education, dialogue with policy experts, and media 
communications, the Fourth Freedom Forum explores options for the 
nonviolent resolution of international conflict and brings these 
concepts to the forefront of mainstream debate.
    The Joan B. Kroc Institute for International Peace Studies at the 
University of Notre Dame conducts educational, research, and outreach 
programs on international peace. The Institute's programs emphasize 
international norms and institutions; religious, philosophical, and 
cultural dimensions of peace; conflict transformation; and social, 
economic, and environmental justice.

                              ----------                              


             Additional Questions Submitted for the Record


 RESPONSES OF SECRETARY OF STATE COLIN POWELL TO ADDITIONAL QUESTIONS 
            FOR THE RECORD SUBMITTED BY SENATOR JESSE HELMS

                       TRADE AND BUSINESS ISSUES

    Question 1. When does the Bush Administration plan to seek fast 
track negotiating authority?

    Answer. The Administration has been consulting with Congress, 
business, NGOs and others regarding trade promotion authority. Although 
timing has not yet been decided, President Bush has stated that he 
would like to show progress towards gaining trade promotion authority 
in time for the Quebec Summit of the Americas meetings in April.

    Question 2. Will the United States support inclusion of a 
``democracy clause'' setting representative democracy and respect for 
human rights and the rule of law as a condition of participating in the 
FTAA process?

    Answer. The Summit of the Americas has been a process for promoting 
democratically elected governments from the beginning. Leaders 
reiterated that at the Santiago Summit. We support a more explicit 
affirmation of that commitment at the Quebec meeting for the entire 
Summit process, which includes the FTAA.

    Question 3. What steps will you take, in conjunction with other 
agencies, to make sure that the interests of U.S. companies, in 
particular their patent rights, will be protected?
    What will you do in cases where there is a clear TRIPS violation, 
as in Argentina and the Dominican Republic?

    Answer. In international fora and through our embassies, the 
Department of State works to ensure that foreign governments provide 
adequate and effective protection for intellectual property. We view 
compliance with TRIPS obligations as a benchmark in this effort. 
However, in multilateral and bilateral negotiations, such as the 
ongoing Free Trade Area of the Americas negotiations, we encourage the 
adoption and enforcement of intellectual property protections that go 
beyond the minimum protection requirements afforded by TRIPS.
    With regard to Argentina, WTO dispute settlement consultations have 
been initiated to address the government's inadequate protection of 
patents and test data. We also are reviewing Argentina's protection of 
intellectual property rights through the annual Special 301 process.
    With regard to the Dominican Republic, we are encouraging the 
Dominican Government to revise patent legislation to conform to its 
TRIPS obligations. We are also reviewing the Dominican Government's 
protection of intellectual property in the Special 301 process.

                                 HAITI

    Question. What will you do to press the de facto Aristide 
government to comply with the eight conditions set by the outgoing 
Clinton Administration? What specific steps will you take to bolster 
the opposition and other democratic elements in Haitian civil society?

    Answer. Our policy on the eight points was articulated in President 
Bush's February 13 letter to President Aristide. This correspondence 
called the eight points a ``starting point,'' conveying our expectation 
that President Aristide would exceed them if necessary to address our 
concerns. We have also made clear that the U.S. will not fully 
normalize relations, nor support restoration of assistance to the 
Haitian Government by the United States and international financial 
institutions, until the eight conditions are met.
    Through our programs we actively back the activities of Haitian 
journalists, labor unions and NGO's and diplomatically support the 
mediation effort of civil society. Through capacity-building measures 
that would be made available to all Haitian political parties, we 
intend to assist the opposition once a meaningful negotiation process 
has begun.

                  ANDEAN REGION: PLANS FOR ASSISTANCE

    Question. How will the Bush Administration assist all of our allies 
in the Andean region--not just Colombia--to prevent a return of illegal 
drug cultivation and to bolster their weak democratic governments?

    Answer. We are developing a coordinated assistance plan for the 
entire region, including Bolivia, Brazil, Colombia, Ecuador, Panama, 
Peru and Venezuela, to prevent traffickers from simply shifting 
operations in reaction to Plan Colombia and to help these countries 
deal with varied threats. This initiative recognizes that the problems 
confronting the Andean region--threats to democracy, weak economies and 
narcotics trafficking--are linked and must be addressed in a 
coordinated manner. Sluggish economies produce political unrest that 
threatens democracy and provides ready manpower for traffickers and 
illegal armed groups. Weak institutions, corruption and political 
instability discourage investment, contribute to slow growth and 
provide fertile ground for traffickers and outlaw groups. The drug 
trade has a corrupting influence that undermines democratic 
institutions, fuels illegal armed groups, and distorts the economy, 
discouraging legitimate investment. None of the region's problems can 
be addressed in isolation. All need to be addressed comprehensively, 
and be accompanied by appropriate public diplomacy initiatives, to 
advance our goals in the region.

                         ANDEAN AND DRUG ISSUES

    Question 1. What are your views on President Pastrana's current 
strategy of engaging Colombia's narco-terrorists by granting them large 
tracts of land in exchange for peace? Should the United States support 
an unpopular, unsustainable policy that grants safe-havens to the 
narco- terrorists, allowing them to expand their drug production and 
other illicit activities with virtual impunity?

    Answer. We have fully supported President Pastrana's efforts to 
negotiate a solution to the Colombian conflict. We share President 
Pastrana's assessment that Colombia's problems cannot be effectively 
resolved while illegal armed combatants continue to wreak havoc upon 
Colombians and that Colombia's civil strife cannot be won by military 
means.
    With respect to the advisability of the FARC demilitarized zone 
(``despeje'') or of the proposed ELN demilitarized zone (``encounter 
zone''), we have deferred to the Colombian Government on the utility of 
these specific mechanisms to advance peace discussions. Fundamentally, 
the management of the Colombian peace process is something to be 
negotiated between the Government of Colombia and the illegal armed 
groups.
    Nevertheless, we will not support any Colombian peace agreement 
that would impede our ability to conduct counternarcotics operations in 
Colombia. We have told the Government of Colombia that our support for 
the Colombian peace process is contingent on whether it satisfactorily 
addresses our counternarcotics concerns. To date, the existence of the 
FARC ``despeje'' has not interfered with our counternarcotics efforts 
in Colombia, including our support of the ambitious Plan Colombia 
strategy in southern Colombia.

    Question 2. As you know, the mycoherbicide technology is a 
promising new tool designed to reduce the cultivation and supply of 
illicit narcotic crops. Do you support the immediate testing, and 
possible deployment, of the mycoherbicide technology in Colombia?

    Answer. The United States government has supported research towards 
controlling the cultivation of illicit narcotic crops for many years. 
Using funds appropriated by Congress in 1990, USDA developed a proof of 
concept on the use of biological control agents to control illicit 
crops, particularly coca. The Department, after consulting with USDA, 
concluded that this would require conducting limited field tests in the 
``target'', i.e. foreign, environment where the illicit drug crops are 
actually grown. The Colombian Government and the U.N. International 
Drug Control Program (UNDCP) are discussing potential cooperation to 
conduct these field tests, which are essential to developing definitive 
data on the safety and efficacy of these mycoherbicides in their 
intended environment. Testing in Colombia will proceed only with the 
full cooperation and approval of the Colombian Government. This 
approval has not yet been granted, pending the completion of an 
acceptable research protocol.

                       CUBA POLICY--LIBERTAD ACT

    Question. Officers in the State Department's Bureau for Western 
Hemisphere Affairs (WHA) responsible for investigations under the Cuban 
Liberty and Democratic Solidarity (LIBERTAD) Act of 1996 have concluded 
that the Spanish firm Grupo Sol Mehia (GSM) is trafficking in property 
owned by a U.S. claimant. Under the law, this conclusion triggers an 
immediate decision by the Secretary of State to sanction GSM. 
Negotiations between GSM and the claimant have been terminated. When 
will the State Department provide the Committee a copy of its sanction 
determination letter to GSM? The Clinton Administration has routinely 
waived provisions of Title III of the LIBERTAD Act citing promises by 
Europe to promote human rights in Cuba. Will you review the current 
waiver of Title III and comply with the legal requirement that such 
waiver genuinely hastens the democratic transition in Cuba?

    Answer. The Department of State has a long-standing practice of not 
commenting publicly on Libertad Act cases which may or may not be under 
review. I would be happy to have Under Secretary of Economic Affairs 
Larson meet with you to discuss matters related to these issues.
    Regarding Title III of the Libertad Act, I understand that the 
Department is scheduled to review relevant factors this action is 
appropriate. Certainly we share your commitment to realize a democratic 
transition in Cuba. Our goal is to apply the law in a way that builds 
international consensus on encouraging democratic and economic change, 
and respect for human rights.

                            ECUADOR: EMELEC

    Question. The Government of Ecuador has failed to show the good 
faith necessary to find a mutually beneficial resolution of a dispute 
regarding ownership and operation of Empresa Electrica del Ecuador, 
Inc. (ENELEC). Will you instruct the U.S. Embassy in Quito to assist 
the American trustees in resolving this case and to notify the 
Ecuadorian government that its normal relations with the United States 
depend on its equitable treatment of these and all U.S. investors and 
property claimants?

    Answer. I share your view that the Government of Ecuador should 
work with the interested parties to resolve the EMELEC dispute. The 
U.S. Embassy in Quito is in fact maintaining close and frequent contact 
with the Government of Ecuador and the American trustees to encourage a 
rapid and fair resolution of this dispute. U.S. Government officials 
have met regularly over the last year with high-level Ecuadorian 
government officials, including President Noboa, to keep the Government 
of Ecuador engaged on this issue. In these contacts, we have conveyed 
the importance the U.S. Government attaches to the prompt and full 
repayment of the Export-Import Bank debt.
    The U.S. Government is concerned with any case in which the 
property of a U.S. national has been or may be expropriated by a 
foreign government. However, while EMELEC is a corporation organized 
under the laws of the State of Maine, it has been wholly foreign-owned 
since it was sold to Ecuadorian citizens in 1992. The American trustees 
have not provided us with any indication that the company conducts 
business, owns property or employs anyone in the United States.
    Nevertheless, while the U.S. Government has taken no position on 
the merits of this dispute, we regularly raise this issue with the 
Government of Ecuador in order to ensure payment of the Ex-Im Bank loan 
and to avoid this dispute possibly becoming a larger problem between 
our two countries. We understand that the Government of Ecuador and the 
American trustees recently accelerated the pace of their negotiations, 
meeting twice weekly in an attempt to conclude a settlement.

                         VENEZUELA: U.S. POLICY

    Question. Recently, Venezuelan President Hugo Chavez has made 
efforts to consolidate a great deal of political power under his 
authority, express solidarity with radical groups in neighboring 
countries, and seek close ties to the People's Republic of China, Iraq 
and Cuba. In light of these efforts, will you review U.S. policy toward 
Venezuela?

    Answer. Since his election in late 1998, Venezuelan President Hugo 
Chavez has begun a process of radical change in his country's political 
and socioeconomic policies. The changes sought by Chavez could endanger 
Venezuela's democratic tradition and market-driven economy.
    President Chavez has used extreme rhetoric as a political tool to 
intimidate his opponents. We are concerned by his effort to concentrate 
power in the hands of the executive branch and by his association with 
some of the world's most notorious dictators--Castro, Saddam Hussein, 
Khadafi.
    That said, Venezuela's democratic institutions have thus far proven 
sufficiently strong to withstand any attempt to weaken democratic rule. 
It must be remembered that Chavez won two elections with large 
majorities. Virtually all of the actions he has taken to date have 
fallen within the bounds of the Venezuelan constitution, and are 
largely supported by the majority of the Venezuelan populace.
    We will continue to monitor the situation closely and to look for 
opportunities to support Venezuelan civil society organizations 
dedicated to protecting democracy.
    We continue to urge Venezuela and its neighbors to work through 
disagreements peacefully. Expressions of solidarity with radical groups 
undermine stability.
    Despite our disagreement with President Chavez' foreign policy, we 
are determined to protect our vital interests in Venezuela. To this 
end, we will remain engaged on areas of greatest importance to the USG: 
maintenance of democratic institutions; protection of economic and 
commercial ties, including energy; counternarcotics cooperation; and 
regional stability.

                      CUBA: SUPPORT FOR DISSIDENTS

    Question. Mr. Secretary, President Bush has declared his intention 
to keep the embargo on Cuba in place until there are free elections. We 
agree on that. I hope you agree also with me that the embargo alone is 
NOT an adequate policy--we need to do more. We need a policy of 
increased, pro-active support for dissidents on the island--a policy 
modeled after President Reagan's decisive support for the Polish 
Solidarity movement. Do you agree with that approach? And will you make 
full use of your current authorities to increase pro-democracy programs 
right now--including additional funding?

    Answer. We agree that the embargo alone is not an adequate policy 
and that we need to do more. We must also maintain and enhance our 
people-to-people program, maintain support for dissidents, disseminate 
information and the exchange of ideas and work to increase pressure on 
Cuba by other countries and international organizations.
    We plan to continue our policy of active support for dissidents in 
Cuba. Our funding for pro-democracy programs increased this year from 
$3.5 to $5 million. This is a significant increase. As you well know, 
the basic problem is that Cuba is a police state. That is why we want 
to see change in Cuba, but that situation hampers the international 
community's ability to meet and talk with Cubans, discuss transition 
and have access to universities and think tanks. We are open to new and 
different proposals that can help the Cuban people to create the sort 
of civil society that Cuba will need to make a peaceful transition to a 
democratic society with a market economy.

             TAIWAN: U.S. POLICY REGARDING TAIWAN'S STATUS

    Question. Did you mean to imply a change in U.S. policy when you 
said, ``Taiwan is part of China'' during your confirmation hearing?

    Answer. Our policy has not changed. It has been consistent since 
first established in the 1972 Shanghai Communique and then reiterated 
in the 1979 Normalization Communique.
    It was that policy to which I was referring before the Committee 
when I said: ``The United States has long acknowledged the view that 
there is only one China. In that respect, Taiwan is a part of China.''

                       CHINA--ASSISTANCE TO IRAQ

    Question. Do we intend to take any action against Communist China 
for its efforts to assist Saddam Hussein in building up his air defense 
network?

    Answer. We have made our views and concerns clear to the Chinese 
government, which understands that failure to completely resolve this 
issue through ongoing efforts will damage Sino-U.S. relations.
    The Chinese government has reiterated its understanding of China's 
responsibilities to uphold UN Security Council resolutions and has told 
us that it has taken steps to ensure that PRC companies abide by these 
resolutions. We will continue to monitor the situation closely and will 
work with the Chinese government to properly resolve this issue.

                      INTERNATIONAL CRIMINAL COURT

    Question. How does the Bush Administration intend to deal with the 
ICC when it comes into existence?
    Will you pledge to work with the Committee to ensure that American 
citizens are protected from the jurisdiction of this Court?

    Answer. The Bush Administration has taken note of the possibility 
that the International Criminal Court may be up and running in just a 
few years, irrespective of USG concerns. Now is the time to develop and 
begin to implement a strategic plan to pursue effectively our 
objectives, including the protection of U.S. citizens from the Court's 
jurisdiction.
    I welcome an open and frank dialog with the Committee on this 
complex issue. I look forward to working with the Congress to achieve 
our common goal of protecting U.S. personnel.

                            RUSSIA: CHECHNYA

    Question. Will you meet with the foreign minister of Chechnya when 
he next visits the United States? And what will you do to promote a 
peaceful resolution to this conflict?

    Answer. Department officials have met with members of the Chechen 
separatist government before and will do so in the future. We recognize 
Chechnya as part of Russia, however, and meet with them as individuals, 
not in their official capacity. We met March 26 with Mr. Akhmadov at 
the Assistant Secretary level in Washington. That meeting was an 
important opportunity for us to discuss his views on the conflict and 
urge dialogue, respect for human rights, and an end to terrorist 
violence. The Department official who met Mr. Akhmadov has shared with 
select congressional staff his impressions from that meeting.
    We are working with our allies in a coordinated, sustained 
international effort to stop the fighting and move toward a political 
settlement; to ensure humanitarian assistance reaches those in need; 
and to have those responsible for human rights violations held 
accountable.

                    BELARUS: PRESIDENTIAL ELECTIONS

    Question. How confident are you that the regime in Minsk will allow 
presidential elections to take place?
    If they do, how confident are you that the elections will be free 
and fair?

    Answer. We think the elections will take place, but it is an open 
question as to whether they will be free and fair. Lukashenko may try 
to control presidential elections as he did the October 2000 
parliamentary elections. This would be a serious mistake. We have 
communicated forcefully and clearly that an improvement in relations 
with the U.S. requires a return to democracy and an end to the climate 
of fear. Half measures or a continuation of current repressive policies 
will only prolong and deepen Belarus' isolation from the international 
community.

                            PUBLIC DIPLOMACY

    Question. Like President Reagan, I think that, frankly, explaining 
American policy and values abroad is important--and remains so today. A 
public diplomacy officer in a major European capital told a member of 
my staff that she strongly favored consolidation, but that decisions 
that took 3 clearances before consolidation now take 23. And someone 
working on public diplomacy at the State Department told my staff that 
at decision meetings, public diplomacy officers are frequently told: 
``We'll formulate the policy and then you figure out how to sell it.'' 
What do you anticipate doing in the coming months to increase the say 
of public diplomacy folks in the regional bureaus, to give them a role 
in decisions from the ground floor, and to cut red tape--as the 
congressionally-mandated consolidation intended?

    Answer. Public diplomacy and the work of the Department's Public 
Diplomacy Officers in promoting America's national interests are vital 
to the success of U.S. foreign policy. From what I can see so far, the 
1999 reorganization is well on its way to achieving the goals you set 
out by proposing it, but we can do even better. We not only need public 
diplomacy people involved in formulating policy, but we need all our 
people involved in winning support for it.

                            CHILD ABDUCTION

    Question. An American delegation will travel to the Netherlands 
later this month to attend a periodic conference of parties to the 
Hague Convention on Child Abduction. I consider this issue to be a top 
national priority, and have serious concerns about the level of 
cooperation received from a number of European allies on this matter. 
What will the U.S. delegation say and do in the Netherlands to 
underline the need for better cooperation on child abduction?

    Answer. From March 22-28, the U.S. participated in the Fourth 
Special Session on the Practical Operation of the 1980 Hague Convention 
on the Civil Aspects of International Child Abduction. As head of 
delegation, Assistant Secretary of State Mary A. Ryan made specific 
remarks that focused on the importance of improving enforcement of 
Hague return orders and ensuring left behind parents have meaningful 
access to their children.
    Included in the U.S. delegation were Representatives Nick Lampson 
(D-Texas) and Steve Chabot (R-Ohio), a staff representative of the 
Senate Foreign Relations Committee, members of the judiciary, and 
experts from the private sector, as well as State and Justice 
officials. Assistant Secretary Ryan also met with her counterparts from 
Mexico, Germany, Sweden, and Austria and raised the specific concerns 
we have with those countries' compliance with the Convention.

                      STATE DEPARTMENT OPERATIONS

    Question 1. There are several models for State Department reform 
now available, including the Carlucci Report, the Kaden Report and 
others.
          (a) Which of these, if any, is the preferred model?
          (b) Among the recommendations in these many reports, which 
        are the Department's highest priority?

    Answer. All of the available reports share many common themes about 
what State needs to do to reform itself, with the Carlucci report 
offering the best and most recent synthesis. I take seriously the need 
to improve designation of the Deputy Secretary as Chief Operating 
Officer. The focus will be on improving our overseas infrastructure 
(many posts need to be rebuilt; others need improved security); 
bringing State's information technology up-to-date; and obtaining the 
personnel and resources necessary to support the expanded duties that 
State carries in today's world.

    Question 2. When can we expect the State Department's 
authorizations request? Congress has not received the workforce 
planning report mandated in Section 326 of Public Law 106-113. 
According to the cited statute, the report was to have been presented 
to Congress on March 1, 2001. Please give the intended date of 
delivery.

    Answer. The Department looks forward to working closely with the 
Committee in order to obtain passage of our authorization bill, and we 
appreciate that you are requesting our input. We hope to provide you 
with a fully cleared administration proposal in the very near future. 
The Department workforce planning report has been completed and was 
transmitted to Congress on March 16, 2001.

    Question 3. In Section 2303 of the Foreign Affairs Reform and 
Restructuring Act of 1998, Congress mandated that ``[the officer of the 
Department of State with primary responsibility for . . . personnel in 
the Department of State, or that officer's principal deputy, shall have 
substantial professional qualifications in the field of human resource 
policy and management. Will you ensure that the eventual nominee for 
Director General and/or the person chosen to serve as the Director 
General's principal deputy meets this statutory requirement?

    Answer. We agree that the position of Director General of the 
Foreign Service and Director of Human Resources is a critical State 
Department leadership position. We can assure you that the person the 
President nominates for that position will have the highest level of 
qualification in the field of human resource policy and management.

                    BALKANS: MARCH 31 CERTIFICATION

    Question. Should the President recommend certification?

    Answer. I evaluated all of the FRY's actions relevant to the 
criteria laid out in Section 594 of House Resolution 5526, and judged 
that the FRY's actions in relation to those criteria justified 
certification.
    However, I believe more can and must be done by the FRY and Serbian 
governments to implement many of the steps necessary to ensure full 
cooperation with the ICTY. We have notified Belgrade authorities that 
we expect them to follow through on their stated commitment to full 
cooperation. If these promises are not fulfilled, the Administration is 
prepared to withhold support for a donor's conference.

                   CHINA: ARMS PURCHASES FROM RUSSIA

    Question. What steps will the Bush administration take to dissuade 
the Russians from selling advanced weaponry and engaging in nuclear 
cooperation with the PRC?

    Answer. This is an issue of serious concern to us. We have asked 
the Russians to look into this issue and plan to follow up.
    We will continue to closely monitor sales of Russian military 
equipment to China, developments in the Taiwan Strait and the 
modernization of the Chinese military.
    We will continue to raise with Russia our concerns about the effect 
of its arms sales on regional stability.

                   CHINA--FINANCING MILITARY BUILDUP

    Question. Does the Bush administration believe it is necessary to 
take any steps to slow down the flow of funds to the government of 
China--IFI loans, Export-Import Bank loans and guarantees, capital 
market offerings--in order to inhibit its ongoing military buildup?

    Answer. A number of legal restrictions already limit trade 
promotion and development assistance activities the USG may undertake 
in China. Regarding the three specific areas raised above, the U.S. 
opposes International Financial Institution (IFI) lending to China 
except for projects that meet basic human needs. The Export-Import Bank 
is an independent agency established by Congress to promote U.S. 
exports and continues to operate in China. As for capital market 
offerings, it is USG policy not to intervene in capital markets.

                 THAILAND: THAKSIN'S ECONOMIC PROMISES

    Question. New Thai Prime Minister Thaksin's populist economic 
promises, if implemented, will almost certainly put renewed pressure on 
the baht and may derail the nascent reform process in that country. Has 
the administration given any thought to possibly hinting to the Thaksin 
government that another bailout may not be forthcoming if Thailand 
pursues reckless economic policies?

    Answer. Prime Minister Thaksin's government is currently in the 
process of formulating its economic and other policies. The cost of its 
policies and programs and the possible impact on economic performance 
are yet to be determined. As it stands, Thailand's debt is less than 60 
percent of GDP, which is better than many developing and some developed 
countries. We will continue to engage with the Thaksin administration 
as these economic policies take shape.

                             CHINA--SINOPEC

    Question. Does the Administration believe that Sinopec's recent 
agreement to invest in Iran's petroleum sector merits sanctions under 
the Iran-Libya Sanctions Act?

    Answer. This is a question we are now reviewing. Our Embassy in 
Beijing has expressed our concerns about this matter to both the 
Chinese government and Sinopec, and we raised the issue here with the 
recently-departed Chinese Ambassador. We are continuing to seek 
relevant information from all available sources. When procedures are 
completed, we will be in a position to determine whether sanctionable 
activity has occurred, and if it has, what action, under the law, to 
take.

 INTERNATIONAL RELIGIOUS FREEDOM: APPOINTMENT OF AN AMBASSADOR-AT-LARGE

    Question. Will you ensure that the position of Ambassador-at-Large 
for International Religious Freedom is not merged with another existing 
post at the State Department?
    Will you ensure that the Office of International Religious Freedom 
is properly funded and adequately staffed?

    Answer. The question about double-hatting came up in my testimony 
to the House International Relations Committee on March 7. With respect 
to the Ambassador-at-Large for International Religious Freedom, I said 
the position is ``vacant at the moment, and I'm looking for somebody to 
fill that position.'' The position of Ambassador-at-Large will not be 
merged with an existing State Department position, so that the 
Ambassador can focus full attention on the issue of religious freedom. 
The Office of International Religious Freedom will be adequately 
staffed and funded.
                                 ______
                                 

 Responses of Secretary of State Colin Powell to Additional Questions 
        for the Record Submitted by Senator Joseph R. Biden, Jr.

                    NUCLEAR WEAPONS TEST MONITORING

    Question. One small, but very important, element in your budget is 
our contribution to the Preparatory Commission for the Comprehensive 
Test-Ban Treaty Organization (CTBTO). This $20 million (which is 
matched by $60 million in contributions from other countries) goes 
primarily to build an International Monitoring System (IMS) to detect 
possible nuclear tests. The IMS will provide information that can 
readily be used with other countries or in public diplomacy, in 
contrast to data gathered by National Technical Means.
          (a) What is the status of the U.S. contribution to the CTBTO 
        Preparatory Commission in the President's proposed budget for 
        FY 2002? Will you work to maintain full funding for this 
        important program?
          (b) What is the status of the FY 2001 funds for our CTBTO 
        Preparatory Commission contribution? Have they been expended?
          (c) In January, General John Shalikashvili wrote that: 
        ``Higher funding and intelligence collection priorities should 
        be assigned to monitoring nuclear test activities.'' What are 
        you doing to ensure that the U.S. Intelligence Community also 
        gets the tasking and support that it needs in this area?

    Answer (a). For FY 2002, we are requesting the funds needed to pay 
fully the estimated U.S. share of costs for the ongoing work 
development and implementation of the International Monitoring System 
to detect nuclear explosions.
    Answer (b). The U.S. contribution to the CTBTO Preparatory 
Commission for 2001, $17,598,257, was paid in full.
    Answer (c). The Department:
  <bullet> tasks the Intelligence Community through membership in the 
        Nuclear Test Intelligence, Joint Atomic Energy Intelligence, 
        and Measurement and Signature Intelligence Committees;
  <bullet> stresses key issues such as foreign nuclear testing in its 
        participation in interagency bodies overseeing collection 
        strategies, requirements, and resources for all disciplines 
        (imagery, HUMINT, SIGINT, MASINT, OSINT);
  <bullet> is participating in the just-begun review of the Nuclear 
        Detection System aimed at revalidating system requirements and 
        consolidating funding and support;
  <bullet> chairs the interagency Treaty Monitoring Working Group, 
        through which it addresses IC budget issues;
  <bullet> informs the Congress, as required by law, when the 
        verifiability of a treaty is in doubt due to the impending loss 
        of critical monitoring assets; and
  <bullet> will allocate Key Verification Assets Fund monies (as 
        available) to help preserve nuclear test detection 
        capabilities.

                   INTERNATIONAL ENVIRONMENTAL ISSUES

    Question 1. What are the Administration's plans for signature and 
ratification of the recently negotiated treaty on persistent organic 
pollutants?

    Answer. The persistent organic pollutants (POPs) treaty will be 
open for signature at a diplomatic conference in Stockholm in May. The 
Administration is currently reviewing the treaty to determine whether 
or not to sign.

    Question 2. The President has said that he is convinced climate 
change is occurring. With climate change negotiations due to resume 
this summer, would you tell us the process by which the Administration 
is developing policy on this issue? Has the President given any 
direction to that process? What sort of policy proposals are being 
considered for those negotiations? Who will lead the Administration's 
negotiations?

    Answer. The Administration is undertaking a Cabinet-level review of 
U.S. climate change policy. This review will consider what policies 
this Administration should pursue domestically and internationally. It 
will fully examine global climate change issues--including the science, 
technologies, market-based systems and innovative approaches to global 
climate change. The Administration has not determined who will lead 
upcoming climate change negotiations.

                             INDIA/PAKISTAN

    Question. (a) What actions are you considering which would help 
make South Asia a safer place?
    (b) How will the failure of the United States to ratify the 
Comprehensive Nuclear Test Ban Treaty (CTBT) affect your ability to get 
India and Pakistan to sign that treaty or to take other steps away from 
the nuclear brink?

    Answer. The most important thing we can do is to develop our 
relations with India and Pakistan so that we can exercise leadership 
across a broad range of political, economic and security issues. We'll 
be looking at ways to do this as we review our policy toward the region 
over the coming months.
    At the same time, you can expect that the Administration will 
continue to urge both countries to exercise restraint in nuclear and 
missile matters. We remain firm in our belief that nuclear weapons and 
ballistic missiles create serious risks for regional security and also 
for global efforts to prevent the spread of nuclear weapons. We will 
certainly encourage both India and Pakistan to continue to observe 
their voluntary moratoriums on further nuclear testing. We will also 
encourage and assist them to adopt effective controls on the export of 
sensitive materials and technology.
    We will urge India and Pakistan to create the conditions that will 
lead to a resumption of the dialogue suspended as a result of the 
Kargil crisis. They have much on the agenda, including Kashmir. We will 
be prepared at all times to be helpful but we will not seek a mediation 
role.
    Regarding the CTBT, every country will make its decision on the 
Treaty according to its perception of its own national interests. India 
and Pakistan are well aware that the U.S. has long abstained from 
nuclear testing. India has stated that it will continue its voluntary 
moratorium until the CTBT comes into effect, unless its supreme 
national interests are jeopardized. Pakistan has said it would continue 
its moratorium as long as India does. Both governments have stated 
their intentions to develop a national consensus in favor of signing 
the CTBT, although domestic and national security concerns have, thus 
far, prevented them from doing so.

             AFRICA: DEVELOPMENT PROGRAMS IN KEY COUNTRIES

    Question. What emphasis will be placed on working with democratic 
elements within countries that have not made significant steps towards 
democracy, or have actually taken steps in the opposite direction, such 
as Ivory Coast or Zimbabwe?
    Should we expect this administration to focus more on trade as a 
means of development assistance in Africa? How is this reflected in the 
President's FY 02 Budget?
    What special programs or initiatives will this administration 
undertake to help African governments deal with the impact that HIV/
AIDS has on their countries, and how is this reflected in the budget?

    Answer. We emphasize, particularly in transitional countries, 
activities to promote the development of democratic principles, the 
advancement of human rights and increased access to both the judicial 
system and political processes for women and ethnic groups. Experience 
over the past decade has demonstrated the value of sustained support of 
democratic elements even within countries that prima facie have limited 
opportunities for positive political change. South Africa and Nigeria 
are examples of countries where the USG commitment to non-governmental 
actors contributed significantly to emerging democratic cultures. 
Accordingly, we can help countries such as the Ivory Coast and 
Zimbabwe, once models of stability in crisis-torn regions, return to 
the path of good governance, by strengthening these critical building 
blocks of democracy and empowering human rights advocates, women, and 
marginalized groups.
    This administration certainly favors expanding trade in general and 
enhancing our trade and investment relations with Africa. The President 
indicated his support for expanding trade with Africa during his 
January 31 meeting with the Congressional Black Caucus. The African 
Growth and Opportunity Act is an important legislative tool to achieve 
this goal.
    Trade will be a major component of our policy toward Africa since 
it is such an important aspect of economic growth and development. In 
addition to benefits under the AGOA, we and other donors in the WTO 
have been working with African and other developing countries to 
reinvigorate the Integrated Framework for coordinated trade-related 
assistance. To help them take fuller advantage of trade benefits like 
AGOA, we are trying to improve developing countries' ability to 
understand sanitary and phyto-sanitary requirements; we are also 
working to ensure trade policies are integrated into country assistance 
and poverty reduction strategies with multilateral development banks.
    I consider the international spread of HIV/AIDS as a critical issue 
of concern--USAID remains the lead USG agency in international HIV/AIDS 
programs. In FY 01, Congress allocated $340 million for HIV/AIDS to 
USAID; a more than three-fold increase from 1999 levels. The current 
administration's FY 02 budget includes an increase of 10 percent.
    USAID has identified Uganda, Zambia and Kenya as ``Rapid-Scale Up'' 
countries in sub-Saharan Africa. They will receive increased support to 
achieve measurable impact against the epidemic within one or two years. 
Additionally, USAID is working to involve local communities through 
faith-based initiatives. Finally, USAID's Africa Bureau provides 
assistance to various countries to assess the impact of HIV/AIDS; this 
will produce long term plans to cope with this decimation.

                CENTRAL ASIA: IMPORTANCE OF HUMAN RIGHTS

    Question. Central Asia presents the United States with a 
fundamental dilemma. It is a resource-rich area in a strategically 
important part of the world. Yet it is ruled by corrupt dictators who 
use the specter of insurgency to justify their repression, and this 
brutality generates popular support for the very forces it seeks to 
stamp out. In Kazakhstan, for example, President Nazarbayev has 
virtually eliminated any semblance of an independent judiciary and 
freedom of the press is essentially non-existent. There is little 
accountability for the government's actions.
    (a) How would you propose to maintain U.S. influence in Central 
Asia without sacrificing our basic values?
    (b) Using your gift for forthright speech rather than diplomatic 
jargon, what message on the fundamental importance of human rights 
would you send to the leaders of Central Asia?

    Answer. I agree fully with your description of the problem we face 
in Central Asia. An ``Arc of Instability,'' including such neighbors as 
Iran, Afghanistan, Pakistan, China and Russia, surrounds the Central 
Asian countries. The governments of the region face serious 
transnational threats such as terrorism, narcotics smuggling, and 
trafficking in arms, including weapons of mass destruction. At the same 
time, we see these same governments turning increasingly to autocracy 
and repression as tools of statecraft.
    Only by remaining engaged on both fronts can we reconcile our 
support for enhanced regional security with our effort to promote 
democratization and free market economic reform. As we encourage the 
Central Asian states to participate actively in the NATO, the 
Partnership for Peace and the OSCE, we are also exposing them to the 
democratic values those institutions represent. In discussions of 
regional and international security, we reserve time to raise general, 
and sometimes specific, issues of democracy and human rights. We also 
use the OSCE Permanent Council in Vienna as a forum for both bilateral 
engagement on these issues, and when necessary, public criticism of 
abuses by the Central Asian governments.
    The message we should send to these leaders is very simple: 
Democracy and respect for human rights are basic values for the United 
States government and its people. We will continue to press you on 
these issues at every opportunity. We think it is in your own self 
interest to empower your citizens both politically and economically, 
because in the end they will not support you if they do not have a 
stake in your country's future.
                                 ______
                                 

Response of Secretary of State Colin Powell to Additional Question for 
          the Record Submitted by Senator Russell D. Feingold

              ANGOLA: PUBLICATION OF OIL REVENUE PAYMENTS

    Question. Earlier this year, British Petroleum made a commitment to 
publicly publish their annual payments to Sonangol and the Angolan 
government, including signature bonus payments, so that the Angolan 
people can begin to have a sense of how much revenue their government 
takes in, and thus begin to hold officials accountable for their 
management of the budget. Would you support efforts underway to 
encourage major American oil firms to do the same?

    Answer. The United States strongly supports continuing Government 
of Angola efforts to improve transparency. In recent meetings with us, 
senior Angolan officials reiterated their pledge to pursue 
transparency. We are encouraged by the Government of Angola's 
recognition that it bears primary responsibility in this matter. We are 
working with the Government of Angola and the International Monetary 
Fund to support the progress of the ongoing ``diagnostic'' review of 
oil sector revenues. The goal of the review is to clearly trace 
revenues from oil production as an important step in improving 
transparency and accountability in these accounts. We strongly 
encourage all U.S. firms active in the Angolan oil sector to work with 
the Government of Angola and the IMF to provide all relevant data in 
support of the ongoing diagnostic review.
                                 ______
                                 

 Responses of Secretary of State Colin Powell to Additional Questions 
           for the Record Submitted by Senator Paul Wellstone

           CHINA: RESOLUTION AT UN COMMISSION ON HUMAN RIGHTS

    Question. While strongly supporting the administration's decision 
to sponsor a resolution on China at the UN Commission on Human Rights, 
I am concerned about the U.S. being the only sponsor again, making it 
far easier for the Chinese government to defeat the measure. To exert 
serious pressure on China through this process, we will need other co-
sponsors. What efforts are you personally, and the President, making to 
ask other governments to co-sponsor? For example, has Mexico, a key 
member of the Commission this year, yet been approached? Or Canada? Or 
Costa Rica? Or the Czech Republic?

    Answer. We are seeking co-sponsors for our China resolution and 
active support for our effort to defeat China's anticipated no-action 
motion. We are serious in our pursuit of the resolution in Geneva. I am 
personally involved in these efforts, and have already underscored U.S. 
priorities with other concerned countries. For example, I have urged EU 
ministers to support the resolution. It would be best not to discuss 
further U.S. interactions with specific governments regarding the 
resolution in deference to the confidentiality of government-to-
government discussions and to ensure the best possible atmosphere for 
our diplomatic efforts to succeed.

           CHINA: RAISING HUMAN RIGHTS WITH VICE PREMIER QIAN

    Question. The State Department should be commended for a strong, 
detailed and hard hitting report on human rights deterioration in 
China. What specific human rights concerns will you raise directly with 
Vice Premier Qian when he visits Washington, March 18-24?

    Answer. We made clear to Vice Premier Qian our strong commitment to 
securing progress on human rights in China. We did not shrink from 
candidly discussing differences. We urged the Chinese government to 
improve the situation on the ground in China and conform with 
internationally accepted standards.

           CHINA: GENEVA RESOLUTION AND HUMAN RIGHTS DIALOGUE

    Question. If Vice Premier Qian insists the U.S. drop any effort to 
censure China in Geneva in exchange for resuming the formal dialogue on 
human rights (suspended by China in May 1999), how will you respond?

    Answer. We have already announced that we are going forward with a 
China resolution at the UN Commission on Human Rights. We are committed 
to that course. We have also made clear to the Chinese that we are 
ready to resume our human rights dialogue without preconditions.


</pre></body></html>
